APPENDIX

Case :

-2101

Document : 58

Page : 1

.

•d: 08/05/2020

NOTE: This order is nonprecedential.

Wniteb~tates QI:ourt
of §ppeals
fortbejf eberalQI:ircuit
URS ENERGY & CONSTRUCTION, INC ., FOR THE
USE AND BENEFIT OF THE SECURED
CREDITORS OF GROUND IMPROVEMENT
TECHNIQUES, INC., PNC BANK , N.A., FIREMAN'S
FUND INSURANCE COMPANY, R.N. ROBINSON &
SONS, INC.,
Plaintiffs
v.

UNITED STATES,
Defendant-App ellee
v.

ROBERT KINGHORN, LAW OFFICES OF
FREDERICK HUFF,
Mo uants-Appellants
2019-2101

Appeal from the United States Court of Federal Claims
in No. 1:12-cv-00057 -RHH, Senior Judge Robert H.
Hodges , Jr .

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC

App-J

Case: 19-21L

Document: 58

Page: 2

Filed :

05/2020

URSENERGY& CONSTRU
CTION v. UNITEDSTATES

2

Befo re PROST, Ch ief Judg e, NEWMAN, LOURIE, DYK,
MOORE, O'1v1AL
LEY, REYNA, WALLACH
, TARANTO, CHEN,
a nd STOLL, Circu it Judge s*.
PER CURIAM.

ORDER
Appellants Robert Kin ghorn and Law Offices of Fr ederick Huff file d a combined petition for pan el reh ea ring a nd
rehearing en ban e. The petition wa s referr ed to th e pan el
that hea rd th e appeal , and thereafter th e petition for rehearing en bane was referr ed to th e circuit judg es who are
in regular active service.
Upon consideration

th ereo f,

IT l s ORDEREDTHAT:
Th e pet it ion for panel re hea ring is de ni ed.
Th e petiti on for rehea rin g e n bane is de nied .
Th e mandate of th e court will is s ue on August 12, 2020 .

FOR THE COURT
August 5, 2020
Dat e

*

Isl P ete r R. Marksteiner
Pet er R. Markst ei ner
Clerk of Court

Circuit Judge Hu ghes did not participate.

App-2

Case: 19-

J1

Document: 55

Page: 1

Fil\

05/18/2020

NOTE: This dispositio n is nonpr ecede ntia l.

Wniteb~tateg q[ourtof ~ppealg
fortbejf eberalq[ircuit
URS ENERGY & CONSTRUCTION, INC., FOR THE
USEANDBENEflTOFTHESECU
RED
CREDITORS OF GROUND IMPROVEMENT
TECHNIQUES, INC., PNC BANK, N.A., FI REMAN'S
FUND INSURANCE COMPAI\TY,R.N. ROBINSON &
SONS, INC.,
Plaintiffs
v.

UNITED STATES,
Def enda nt-Appellee
v.

ROBERT KINGHORN, LAW OFFICES OF
FREDERICK HUFF,
Mo uan ts-Appellants
2019-2101
Appeal from the United States Court of Federal Claims
in No. l:12-cv-00057 -RHH , Senior Judge Robert H .
Hodges , Jr.
Decided: May 18, 2020

A pp-3

Case: 19

2

01

Document: 55

Page: 2

Fil

05/18/2020

URSENERGY& CONSTRUCT
IONv. UNITED STATES

ANNA BONDURANT ELEY, Commer cial Litig at ion
Branch , Civil Divi sion , U nit ed Stat es Department of Ju stice , Wa shin gton, DC , argued for defendant-app ellee. Also
repres ented by J OSEPH H . HUNT, STEVEN JOHN
GILLINGHAM,ROBERTEDWARDKIRSCHMAN
, JR.
Schooley Law Firm , Orland o, FL ,
STEVENR. SCHOOLEY,
argued for mova nt s-app ellant s.

Befor e PROST, Ch ief Judg e, DYK and WALLACH, Circuit
Judg es.
PROST, Chi ef Judg e.
Rob er t Kinghorn and th e Law Offices of Fred eri ck Huff
("Mr. Kinghorn and Mr. Huff ') appeal t he deni a l of their
motion to int erv ene post-judgm e nt at the Court of F ederal
Claims. We hav e juri sdiction und er 28 U.S.C. § 1295(a )(3).
A motion to intervene mu st be t im ely . R. Ct. F ed . Cl.
24(a) , (b). We rev iew a trial court 's tim elin ess dete rmination for abuse of discretion. See NAACP v. New Yori?-,413
U.S. 345 , 365-66 (197 3).
Mr . Kinghorn and Mr. Huff mov ed to int er vene nea rly
one month after summary judgment was granted , and over
on e yea r after it wa s reque ste d . J.A. 4. Th ey soug ht to
modify the judgment by over $4.5 million on a th eory that
had not bee n pre se nt ed to the cour t by th e plaintiffs in thi s
case, a circumstan ce that these appellants were well aware
of month s before the grant of summar y judgm ent . Id . Applying th e r elevant factor s in it s decision , th e court denied
t he motion as untimel y . J .A. 5-6.
We hold that the trial court did not abuse its discretion
in dete rmining th at th e post-jud gment moti on to int er ve ne
was untim ely. Beca u se tim elin ess is dispos iti ve, we affirm.

AFFIRMED

App -4

Case: 19

Document: 56

Page: 1

Fil

05/18/2020

Wniteb~tates Qtourt
of ~peals
fortbejf eberalQtircuit
URS ENERGY & CONSTRUCTION, INC., FOR
THEUSEANDBENEflTOFTHESECURED
CREDITORS OF GROUND IMPROVEMENT
TECHNIQUES, INC., PNC BANK, N.A.,
FIREMAN'S FUND INSURANCE COMPANY, R.N.
ROBINSON & SONS, INC.,
Plaintiffs
v.
UNITED STATES,
De/en don t-Appel!ee
v.

ROBERT IHNGHORN, THE LAW OFFICES OF
FREDERICK HUFF ,
Mot 'On I s-Appella 11ts
2019-210 1
Appeal from the United State s Court of Federal Claims
in No. 1:12-cv-00057-RHH , Senior Judg e Robert H.
Hodge s, Jr .

JUDGMENT

App-5

Case: 19

Document: 56

THIS CAUSE

Page: 2

Fil

05/18/2020

having been considered, it is

ORDERED AND ADJUDGED:

AFFIRMED
ENTERED BY ORDER

May 18. 2020

OF THE Cornn
Isl Peter R. Marksteiner

Peter R. Marksteiner
Clerk of Court

App-6

Case 1:12-cv

J57-RHH Document 125 Filed 04/::. ...9 Page 1 of 7

mtntteb~tates Qtourtof jf eberalQtlatms
No. 12-57 C
Filed: April 30 , 2019

URS ENERGY & CONSTRUCTION,
INC., for the use and benefit of the
secured creditors of GROUND
IMPROVEMENT TECHNIQUES, INC.;
PNC BANK, N.A.; FIREMAN'S FUND
INSURANCE COMPANY; and R.N.
ROBINSON & SONS, INC.,

Plaintifft,
v.
UNITED ST ATES OF AMERICA,

Defendant.

Steven Roger Schooley , Schooley Law Firm , Orlando , FL, for would-beintervenors .
Robert Galen Barbour, Watt , Tieder , Hoffar & Fitzgerald, LLP, McLean, VA, for
plaintiffs .
Anna Bondurant Eley, United States Department of Justice , Commercial Litigation
Branch, Washington, DC, for defendant.
ORDER DENYING MOTION TO INTERVENE
Robert Kinghorn and The Law Offices of Frederick Huff file this motion to
intervene and join as parties in this action. They claim that they have an interest in
amending our judgment, pursuant to Rule 59( e) of the RFCF, to seek total reimbursement
of the full amount of the GIT Judgment and an award for costs . The Government maintains
that their motion to intervene should be denied because it is untimely; they are not entitled
to intervention as a matter of right; and that they are not entitled to permissive joinder.
Mr. Kinghorn and Mr. Huff do not have a right to intervene or be joined as parties;
nor are they entitled to permissive intervention or joinder . Their motion must be denied.

App-7

Case 1:12-cv• ,057-RHH Document 125 Filed 04/0 .J.9 Page 2 of 7

BACKGROUND
Plaintiff URS Energy & Construction, Inc. entered into a cost-reimbursement
contract with the Department of Energy in 1983, 1 which it subcontracted to Ground
Improvement Techniques, Inc. (GIT). Later, URS terminated this subcontract. The
termination led to years of litigation and GIT eventually obtained a favorable judgment.
URS filed this action to obtain reimbursement for the judgment against it in favor of GIT.
The court granted summary judgment in favor of URS on January 11, 2019. 2 Mr.
Kinghorn and The Law Offices of Frederick Huff filed this motion to intervene on February
27, 2019 . The court previously issued a ruling on the issue of whether Mr. Kinghorn and
Mr. Huff could be joined as parties to this action and found that joinder was inappropriate .
See Ground Improvement Techniques, Inc. v. United States, No. 12- 57 C, 2014 WL
1711004 , at *6 (Fed. Cl. Apr. 30, 2014) ("GIT f') (ruling onjoinder) .

A. Background and Proceedings Regarding the Real Parties in Interest
During the litigation between URS and GIT, GIT filed for bankruptcy. As part of
its reorganization plan during the bankruptcy proceedings, GIT assigned its interest in the
litigation to five of its secured creditors : PNC Bank, N.A. ; Fireman ' s Fund Insurance
Company ; R.N. Robinson & Sons, Inc.; Holland & Knight LLP; and The Law Offices of
Frederick Huff. The secured creditors chose to continue litigation against URS in the name
of GIT, rather than directing GIT to assign its claims against URS to them .
The reorganization plan provided that if the net proceeds of the URS case were
sufficient to satisfy the claims of the secured creditors in full, the remaining proceeds were
to be distributed to unsecured creditors on a pro rata basis. GIT and the secured creditors
also entered into an Agreement Respecting Litigation , which stipulated that after payment
oflitigation costs and $125,000 to the unsecured creditors as required by the reorganization
plan, the proceeds not in excess of the secured creditors' claims would be distributed first
in part to the secured parties and then in part to Mr. Kinghorn , an equity holder in GIT.
The agreement also provided that settlement of the litigation and operating decisions
regarding the conduct of the litigation required 75% of the voting interests.
GIT eventually obtained a judgment against URS for wrongful termination . The
judgment was only partially satisfied , as URS also had filed for bankruptcy. The
bankruptcy court, however, ordered URS to submit a certified claim with DOE to satisfy
GIT's claims . DOE rejected the certification as inadequate. The bankruptcy court then

1

2

References to "URS" are to be construed to mean both URS Energy & Construction, Inc.
and its predecessors in interest, unless otherwise specified. The original contract was
between DOE and MK- Ferguson Company , a now-cancelled trade name.
Judgment was entered on January 30, 2019.
-2-

App-8

Case 1:12-cv- _ .,057-RHH Document 125 Filed 04/:, __1.9 Page 3 of 7

ordered GIT to file its claims with DOE under URS' name and to certify its own claims .
This claim was denied, so GIT filed a suit in this court against DOE for breach of contract.
The court dismissed GIT's claims brought in its own name because it lacked privity
with defendant. Ground Improvement Techniques, Inc . v. United States, 108 Fed. Cl. 162,
171- 83 (2012). Regarding the remaining claim, brought in URS ' name , it found that the
secured creditors, not GIT, were the real parties in interest because GIT had transferred its
claims to them in bankruptcy. Id at 169- 71. The court directed GIT to describe the method
by which the real parties in interest would participate in the suit.
GIT filed a motion for reconsideration and sought to continue as the real party in
interest , "either through ratification (supported by both Mr. Huff, one of the [s]ecured
[creditors], and Mr. Kinghorn, an equity-holder) or throughjoinder." Ground Improvement
Techniques, Inc. v. United States, 618 Fed. Appx. 1020, 1025 (Fed. Cir. 2015) ("GIT If') .
Three of the secured creditors (PNC, Fireman's Fund, and Robinson) , which held the
required voting interest to conduct litigation , sought to be substituted as the sole plaintiffs .
The court denied GI T's motion for reconsideration and subsequently issued an order
substituting the three secured creditors as sole plaintiffs in the suit. GIT I, 2014 WL
1711004 at *6. It found that irrespective of the manner of joinder proposed, it was not
appropriate for Mr. Kinghorn and Mr. Huff to be joined as parties . Id It explained that Mr.
Kinghorn possessed no direct claim against defendant and that the Agreement Respecting
Litigation placed control of the litigation in the secured creditors ' hands. Id at *7 (stating
thatjoinder could violate the agreement ' s terms and the conditions of GIT's bankruptcy).
Regarding Mr. Huff, the court found that his position as one of the secured creditors
gave his interests adequate protection in the suit. Id The court noted, however, that under
the Agreement Respecting Litigation his voting interest was so small that he could not
choose counsel or direct litigation; pursuant to this agreement, the secured creditors with
75% or more of the voting interest held control of the litigation. Id (stating that joinder of
Mr. Huff could violate the agreement's terms and the conditions of GIT's bankruptcy).
Pursuant to the court's order on April 30, 2014, Robert Galen Barbour was
substituted as the attorney of record for URS. The court docket shows that Steven Roger
Schooley, counsel for the then nominal plaintiffs and present would-be-intervenors , was
terminated as lead attorney for URS that same day . However , it also indicates that Mr.
Schooley remained registered to receive all orders and motions submitted in this case.
On appeal, the Federal Circuit affirmed the court 's decision that the real parties in
interest were the secured creditors and that the three secured creditors should be substituted
as the sole plaintiffs. GIT JI, 618 Fed. Appx . at 1026-28 , 1032. The Circuit , moreover,
stated that this court rightly held that:

-3-

App-9

Case 1:12-cv- . J057-RHH Document 125 Filed O4fo~. J.9 Page 4 of 7

Just because one of the Secured Parties (Mr. Huff) and an
equity holder in GIT (Mr. Kinghorn) might be able to benefit
from a judgment won in this court does not mean that Mr.
Kinghorn or Mr. Huff may flout the Agreement [Respecting
Litigation] and its terms.

Id. at 1028 (quoting GIT I, 2014 WL 1711004 at *5) (finding that Mr. Kinghorn and Mr.
Huff had expressly signed away their control). On January 11, we granted summary
judgment in favor of URS and the clerk of court entered judgment on January 30 for $9,
842, 711.83 for the unpaid portion of the GIT Judgment, inclusive of pre-judgment interest,
and interest on the certified claim from the date the claim was received. Mr. Kinghorn and
Mr. Huff moved to intervene on February 27, 2019; defendant opposes this motion.
B. Summary of Motion to Intervene
Mr. Kinghorn and Mr. Huff filed this motion to intervene and be joined as parties,
as a matter of right pursuant to Rules 24(a) and 19 of the RCFC; or in the alternative,
permissively pursuant to Rules 20 and 24(b) of the RCFC. They maintain that they have
an interest in amending the January decision pursuant to Rule 59(e) of the RCFC, to seek
reimbursement and collection of the full amount of the GIT Judgment and a cost award.
The would-be-intervenors argue that URS' requested judgment for the full amount
of the GIT Judgment in their January 2018 motion for summary judgment, but that the
specific relief URS requested was limited to pre-judgment interest and post-certification
interest rather than the full amount of the GIT Judgment. They contend that the court based
its decision to deny their motion for joinder because their financial interests were already
adequately represented by the secured parties and their counsel.
They maintain that they asked the secured parties to pursue reimbursement and
collection of the full GIT Judgment, but that their request was declined . Therefore, they
contend that the secured parties no longer adequately represent the interest of the other GIT
creditors because their interests have been completely satisfied without obtaining
reimbursement of the full amount of the GIT Judgment. They maintain that the resulting
shortfall is over $4.5 million, which continues to accrue.

LEGALSTANDARD
Rule 24(a)(2) states that on a timely motion, the court must permit anyone to
intervene who "claims an interest relating to the property or transaction that is the subject
of the action, and is so situated that disposing of the action may as a practical matter impair
or impede the movant's ability to protect its interest, unless existing parties adequately
represent that interest." Rule 24(b) states that on a timely motion, the court may permit
anyone to intervene who has a claim that shares a common question of law or fact with the
main action. Under Rule 24(a) or 24(b) , a petitioner ' s motion to intervene must be timely.

-4-

App-10

Case 1:12-cv

J057-RHH Document 125 Filed 04/::._,19 Page 5 of 7

Am . Renovation & Const. Com. v. United States, 65 Fed. Cl. 254 , 258 (2005). To assess
the timeliness of a motion , courts consider: (1) the length of time the moving party knew
of its right to intervene; (2) prejudice to the other parties; and (3) any unusual circumstances
militating either for or against the court ' s determination that the application is timely . Id
Rule l 9(a)( 1) provides that a person must be joined if:
(A) in that person's absence , the court cannot accord
complete relief among existing parties ; or
(B) that person claims an interest relating to the subject of the
action and is so situated that disposing of the action in the
person's absence may: (i) as a practical matter impair or
impede the person's ability to protect the interest; or (ii)
leave an existing party subject to a substantial risk of
incurring double, multiple, or otherwise inconsistent
obligations because of the interest.
Rule 20(a)(l) provides that a person may join in one action as plaintiff if:
(A) they assert any right to relief jointly , severally , or in the
alternative with respect to or arising out of the same
transaction, occurrence, or series of transactions or
occurrences; and
(B) any question of law or fact common to all plaintiffs will
arise in the action.

DISCUSSION
Petitioners maintain that their motion to intervene is timely and that they are entitled
to intervene as a matter of right; in the alternative, they contend that they should be
permissively allowed to intervene as proper parties in this action. Petitioners contend, more
specifically , that their motion is timely brought within the twenty-eight day period set forth
in Rule 59(e) and would not prejudice any of the other parties.
Defendant points out that by petitioners' own accounts , petitioners were aware of
their right to intervene when their request for URS to pursue collection of the full GIT
Judgment was declined. Petitioners counter that they became aware of the inadequacy of
URS' request when reviewing the January judgment ; they allege that they asked that URS
seek to alter or amend the judgment , but that URS declined .
The court docket shows that petitioners' counsel, Mr. Schooley, was registered to
receive all orders and motions submitted in this case. Mr. Schooley was emailed and
presumed to have received the following documents: (1) URS' amended complaint filed in

-5-

App - 11

Case 1:12-cv- . ✓ 057-RHH

Document 125 Filed 041::>~
. .1.9 Page 6 of 7

September 2017 ; (2) URS' motion for summary judgment filed in January 2018; (2)
defendant's cross-motion for summary judgment filed in March 2018; and (4) the court's
order granting URS 's motion for summary judgment on January 11, 2019.
The briefings submitted to the court should have made clear that, in the petitioners '
view, the relief requested and disputed by the named parties did not adequately represent
their interest, if that was the case. Instead, they allowed the named parties to devote their
resources to litigating the case based on the relief requested. Petitioners ' delay in raising
the motion is prejudicial to them. Petitioners were aware of a possible right to intervene
but neglected to exercise it until after judgment.
Intervention is proper only to protect interests of "such a direct and immediate
character that the intervenor will either gain or lose by the direct legal operation and effect
of the judgment. The interest thus may not be either indirect or contingent. The interest
must also be a legally protectible interest." Am . Mar. Transp., Inc. v. United States, 870
F.2d 1559, 1561 (Fed. Cir. 1989) (citations and internal quotations omitted). A legally
protectible interest requires something more than a mere economic interest. Id at 1562.
When the issue of joinder was on appeal, the Federal Circuit stated, "[a]t its core,
GIT's argument is that, because a significant portion of the Secured Creditors claims have
been disbursed , there is no incentive for the Secured Creditors to maximize recovery
against the government. " GIT II, 618 Fed. Appx . at 1028 (quotations omitted) . "While this
may or may not be true, it is not reason to avoid the plain language of the governing
documents in this case. " 3 The Court, moreover , affirmed the holding that because
petitioners might benefit from a judgment , does not mean that they may flout the
Agreement Respecting Litigation . Id.
As previously ruled , Mr. Kinghorn possesses no direct claim against defendant, and
his absence will not impair the court's ability to render complete relief to the existing
parties . GIT I, 2014 WL 1711004 at *7 (ruling that joinder was inappropriate and could
violate the Agreement Respecting Litigation and conditions of GIT's bankruptcy) . The
situation is unchanged; Mr . Kinghorn ' s financial interest remains contingent. 4
3

4

The Federal Circuit added, "It remains unclear to us which of the multitude of competing
bankruptcy claims have been fully satisfied , which have been partially satisfied, and which
remain outstanding. Thus, even if we were inclined to elevate GI T's fairness concerns over
the language of the governing documents (which we are not), we are unable to fully analyze
GIT's argument." 618 Fed. Appx . at 1028 n.3.
The court ruled previously as follows: "Furthermore, Mr. Huff and Mr. Kinghorn do not
possess any right or claim independent of the claim asserted by the Secured Parties so as
to make permissive joinder under RCFC 20 appropriate. In other words , theirs is not an
asserted claim against the United States currently poised to proceed in this court, but a right
that might eventually be asserted against the other participants to the Agreement. Thus,
-6-

App-12

Case 1:12-cv-~ ,J 57-RHH Document 125 Filed 04/:, -.. .i.9 Page 7 of 7

Not only is Mr . Huffs motion untimely , but also joinder could violate the agreement
and the conditions of GIT's bankruptcy . See. id. (finding that Mr. Huff's voting interest
among the secured parties was too small to direct litigation) . Under the agreement, Mr.
Huff was to turn over all files related to the litigation and not have any further role in it
unless the parties to the agreement agreed . Def's . Resp . Mot. Intervene Ex. A, , 8. The
parties to the agreement have not agreed that he should have a further role in this litigation .

CONCLUSION
Petitioners ' motion centers on the claim that the named parties ' interests diverge
and cannot adequatel y represent them , as they have little incentive to modify the judgment
and maximize recovery . Yet , the Federal Circuit addressed a similar claim and ruled that
this is no reason to avoid the plain language of the governing documents in this case.
Petitioners do not have a right to intervene or be joined as parties under Rules 24(a)
and 19 of the RCFC ; nor are they entitled to permissive intervention or joinder under Rules
24(b) and 20 of the RCFC . Mr . Kinghorn and Mr. Huffs motion to intervene is DENIED .

IT IS SO ORDERED.

sl7!:oktt-;?t.-;?to49e4,
fh.
Robert H. Hodge s, Jr.
Judge

there is a valid distinction to be drawn between claims arising from the DOE project and
the legal principles relevant to those claims, on the one hand, and GIT's creditors' potential
claims to a share of any proceeds resulting from this litigation , on the other. The parties are
correct to assert that the transaction at issue in this suit, and the question s of law at issue in
this suit, are not the same as the transactional context of legal claims that may eventually
be adjudicated in a suit brought by Mr. Huff and/or Mr. Kinghorn should a settlement or
judgment be obtained by the Secured Parties ." GFI'I, 2014 WL 1711004 at *8.

-7-

App-13

Case: L J110

Document: 68-2

Page: 1

. 2d: 07/28/2015

NOTE: This disposition is nonpr ecede ntial.

Wniteb$tates Qtourt
of~peals
fortbejf eberalQttrruit
GROUND IMPROVEMENT TECHNIQUES, INC.,
MK FERGUSON COMPAJ'\TY,
FOR THE USE AND
BENEFIT OF GROUND IMPROVEMENT
TECHNIQUES, INC.,
Mo uants-Appellants
v.

UNITED STATES,
Defendant-Appellee
v.

PNC BANK, N.A., FIREMAN'S FUND INSURANCE
COMPANY, R.N. ROBINSON & SONS, INC.,
SECURED CREDITORS OF GROUND
IMPROVEMENT TECHNIQUES, INC.,
Plaintiffs-Appellees
2013-5110
Appeal from the Un it ed States Cour t of Federal
Claims in No. 12-CV-0057, Senior Judge Lynn J. Bush.

Decided: July 28, 2015

App-14

Case: L JllO

Document: 68-2

Page: 2

. ..ed: 07/28/2015

GROUND
IMPROVEMENT
TECHNIQ
UES v. US

2

STEVEN R. SCHOOLEY
, Schooley Law Firm , Orlando ,
FL , argued for movant s -app ellants .
JEFFREY A. REGNER, Commercial Litigation Branch ,
Civil Division , United States Department
of Justice ,
Washington , DC , argued for defendant-appellee.
Also
represented by JOYCE.R. BRANDA, ROBERTE. KIRSCHMAN
,
JR ., STEVENJ. GILLINGHAM.
ROBERT G. BARBOUR, Watt , Tieder , Hoffar & Fitzgera ld, L.L.P. , McLean , VA, for plaintiffs-appellees.

Before PROST, Chief Judge, BRYSONand DYK, Circuit

Judges.
PROST, Chief Judg e.
Ground Improvement
Techniques , Inc. ("GIT' ') appeals decisions by the U.S. Court of Federal Claims
holding that GIT is not the real party in interest , granting
the real party in interest 's motion for substitution
and
denying GIT's motion to continue as plaintiff , and dismissing certain of GIT's claims for lack of jurisdiction.
For the reasons set forth be low, we affirm the decisions of
the U .S. Court of Federal Claims.
BACKGROUND

In 1983, the Department

of Energy ("DOE") entered
into a prime contract with Morrison Knudson Company,
Inc . (the "MK prime contract") for multiple projects across
the nation relating to the remediation of uranium mill
tailings.
The MK prime contract was subsequently
passed from Morrison Knudson Company, Inc. to MKFerguson Company ("MK"). On March 1, 1995 , MK
entered into a subcontract with GIT (the "GIT subcontract") for work on particular uranium mill sites located in
Slick Rock , Colorado. The GIT subcontract was specifically titled "CONSTRUCTION
SUBCONTRACT " and was

App-15

Case: L -.1110

Document: 68-2

Page: 3

GROUJ\1D IMPROVEMENT TECHNIQUES v. US

, ,,ed: 07/28/2015

3

identified as being "[u]nder DOE Prime Contract No. DEAC04-83AL 18796," th e MK prime contract. J.A. 89. The
DOE provided its consent for MK and GIT to enter into
the GIT subcontract. In doing so, the DOE contracting
officer stated that its consent "shall neither create any
obligation of the Government to, or privity of contract
with the subcontractor. " J.A. 362.
On September 18, 1995, with the consent of DOE , MK
terminated GIT for default. That termination became the
subject of multiple years of litigation between MK and
GIT in the U.S. District Court for the District of Colorado
(the "GIT-MK litigation "). During the course of the GITMK litigation , GJT filed for Chapter J 1 bankruptcy in the
U.S. Bankruptcy Court for the Western District of Pennsylvania, and GIT's interest the GIT-MK litigation became an asset of the bankruptcy estate. As part of the
bankruptcy proceeding , GIT entered into a "Reorganization Plan ," which stated that "GIT will assign ... any and
all claims, causes of action , right , title , and interest in and
to the [GIT-MK litigation]" to five of its secured creditors:
PNC Bank ("PNC"), Fireman's Fund Insurance Company
("Fireman 's Fund "), Holland & Knight LLP ("Holland &
Knight "), The Law Offices of Frederick Huff ("Mr. Huff '),
and R.N. Robinson & Sons , Inc. ("Robinson") (collectively ,
the "Secured Parties"). J.A. 418. The Reorganization
Plan further provided that" [i]f the net proceeds of the MK
case are sufficient to satisfy the claims of [the Secured
Parties] in full , the remaining proceeds shall be distributed to unsecured creditors on a pro rata basis. " J.A. 41819. In a subsequent one-page "Clarifying Order ," the
Pennsylvania bankruptcy court stated that "the Secured
Parties may either direct the Debtor to assign to the
Secured Parties or their designee all of the Debtor's rights
and interest in the [GIT-MK litigation] or, at their option ,
continue prosecution of the [GIT-MK litigation] in GIT's
name in lieu of an assignment. " J.A. 479. The Secured
Parties elected to continue litigation against MK in the

App-1 6

Case: L J110

4

Document: 68-2

Page: 4

.. ,ed: 07/28/2015

GROUND IMPROVEMENT TECHNIQUES v. US

name of GIT , rather than directing GIT to assign its
claims against MK to the Secured Parties. In addition to
the Reorganization Plan , GIT and the Secured Parties
also entered into an "Agreement Respecting Litigation, "
which stated that, after payment of litigation costs and
$125 ,000 to the unsecured creditors as required by the
Reorganization Plan , the proceeds not in excess of the
secured creditors' claims would be distributed first in part
to the Secured Parties and then in part to Mr. Kinghorn ,
an equity holder in GIT. J.A. 431-34. As provided by the
Reorganization Plan , any amounts in excess of the Secured Parties ' claims would go to the unsecured creditors.
J.A. 418-19. Neither the Agreement Respecting Litigation nur the Reorganization Plan provided for distribution
of any proceeds to GIT itself. The agreement also apportioned voting interests regarding the decisions to be made
pertaining to the GIT-MK litigation, and specified that
choice of counsel required 70% of the voting interests and
choice of conduct required 75% of the voting interests.
J.A. 432- 34.
GIT eventually obtained a judgment against MK in
the GIT-MK litigation for wrongful termination. However , the judgment was only partially satisfied, as MK, too,
had filed for bankruptcy in the U.S. Bankruptcy Court for
the District of Nevada. The unsatisfied portion of GIT's
judgment against MK , and post-judgment interest, were
claims to be administered in MK's bankruptcy.
The
Nevada bankruptcy court required MK to submit a certified claim with DOE to attempt to satisfy GIT's claims
against MK related to the DOE project. Although MK did
so, the certification was contested as inadequate.
The
Nevada bankruptcy court eventually ordered GIT itself to
file GIT's claims with DOE's contracting officer under
MK's name , and to certify its own claims. GIT then filed
both a certified claim in MK's name and a certified claim
in its own name with the DOE contracting officer. When
GIT received no response from the contracting officer, GIT

A pp- 17

Case: L J110

Document: 68-2

Page: 5

.,ed: 07/28/2015

GROUND IMPROVEJ\IENT TECHNIQUES v. US

5

filed a "deemed denied " suit in the U.S. Court of Federal
Claims. GIT's suit involved four breach of contract counts
against the DOE: Counts I-III in GIT's own name , and
Count IV in MK's name , for the benefit of GIT.
On December 5, 2012 , the Court of Federal Claims issued a decision addressing two issues raised by the parties. See Ground Improve,nent Techniques, Inc. v. Un,:ted
States, No. 12-57 C, 108 Fed. Cl. 162 (Fed. Cl. Dec. 5,
2012) ("GIT I''). First , the court agreed with DOE that
GIT lacked privit y with the government , and therefore
dismissed Counts I-III brought in GI'I"s own name
against the government for lack of subject matter jurisdiction. Id. at 171-83. Second , the court agreed with DOE
that the Secured Parties , not GIT , were the real parties in
interest for all four counts , as GIT's bankruptcy had
transferred all its claims in the GIT-MK litigation to the
Secur ed Parties. Id. at 169- 71. Following its decision ,
the court denied GIT's motion for reconsideration , but
given that Count IV still remained , ordered briefing from
both GIT and the Secured Partie s addressing if and
how-under the court's joinder , ratification , and substitution rules - the suit would go forward on Count IV. See
Ground Impro veme nt Techniques, Inc. v. United States ,
No. 12-57 C, (Fed. Cl. May 3, 2013) ("GIT II'). In response to the court's order , GIT sought to continue as
plaintiff , either through ratification (supported by both
Mr. Huff, one of the Secured Partie s, and Mr. Kinghorn ,
an equity-holder) or through joinder . For their part, three
of the Secur ed Parties (PNC, Fireman 's Fund , and Robinson) sought to be substituted as the sole plaintiffs in the
suit. 1 On April 30, 2014 , the court issued a decision

Together, thes e three Secured Parties held the
requisite voting interests to make decision s regarding the
GIT-MK case, as set forth in the Agreement Respecting
Litigation. J.A. 432-34.

App-1 8

Case: L .,110

6

Document: 68-2

Page: 6

. ..~d: 07/28/2015

GROU:ND IMPROVEMENT TECHNIQUES v. US

substituti ng PNC , Fireman 's Fund , and Robinson as the
sole plaintiffs in the suit and denying GIT's req uest to
continu e as plaintiff.
See Ground Impro vement Techniques, In c. u. United States , No. 12-57 C, 2014 WL
1711004 (Fed. Cl. Apr. 30, 2014) ("GIT Ill '). The court
subsequently direct ed entry of judgment pursuant to Rul e
54(b) of the Rules of the U.S. Court of Federal Claims
("RCFC").
GIT appealed to this court. Specifically, GIT seeks
reversal of: (i) the dete rmination that GIT is not the real
party in interest ; (ii) the substitution of PNC, Fireman 's
Fund , and Robinson as plaintiffs , and the denial of GIT's
request to continue as plaintiff; and (iii) the dismissal of
Counts I-III for lack of privity. PNC, Fireman 's Fund ,
and Robinson moved , with the government's consent, for
voluntary dismissal of the appeal and the return of jurisdiction to the Court of Federal Claims; GIT opposed. We
requested briefing from all three parties , and for the
reasons explained below , affirm th e decisions of the Court
of Federal Claims.
DISCUSSION

"This court reviews judgm ents of the Court of Federal
Claims to determine whether they are premised on clearly
erroneous factual dete rminations or otherwise incorrect
as a matter of law. " Wheeler u. United States, 11 F.3d
156, 158 (Fed. Cir. 1993). The court below addressed th e
real party in interest question und er RCFC 12(b)(6) and
the privity question under both RCFC 12(b)(l) and
12(b)(6). We review the court's determinations
under
both rules de nova. Id . The court addressed the substitution and joinder que stio ns under RCFC 19 and 20. While
we have not yet stated whether such determinations are
reviewed de novo or for abuse of discretion , United Keetowah Band of Cherokee Indians of Okla. u. United States ,
480 F.3d 1318 , 1324 (Fed. Cir. 2007), we nee d not decide

App-19

Case : L J110

Document: 68-2

Page : 7

... 2d: 07/28/2015

GROUND IMPROVEMENT TECHNIQUES v. US

7

th e question here because our outcome would be the sa me
under either standard.

I
We begin by addressing the real party in int erest
ques tion . Under the applicable rule of the Court of Federal Claims , "[a]n action must be prosecuted in the name
of the r ea l party in interest. " RCFC l 7(a)(l). The Court
of Federal Claims has defined a real party in interest as
"the party that 'possesses the right to be enforced. "' Grass
Valley Terrace v. United States , 69 Fed. Cl. 543, 546
(2006) (quoting Mitchell Food Prods. , Inc. v. United
States , 43 Fed. App'x. 369, 369 (Fed. Cir. 2002)); see also
Crone u. United States , 538 F.2d 875 , 882 (Ct. Cl. 1976)
(describing the real party in interest as the party "to
whose present , personal benefit a mon ey judgment may
run"). Failure to prosecute an action in the name of the
real party in interest results in ilismissal of the claim ,
unless cured. Aldridge u. United States , 59 Fed . Cl. 387,
390 (Ct. Cl. 2004); Norega u. United States , 113 F. Supp.
463 , 464 (Ct. Cl. 1953).
The Court of Federal Claims held that GIT's bankruptcy effected a transfer of GIT 's claims relat ed to the
DOE project to the Secured Parties , and that the Secured
Parties were therefore the real parties in interest for all of
GIT 's claims in this suit. 2 GIT I, 108 Fed . Cl. at 171-8 3.
For the reasons explained below, we agree.

2

The Court of Federal Claims held this to be tru e
regardless of "whether the claims are described as claims
against MK or against the United States ," as all of GIT's
claims were founded on either the unsatisfied judgment
and post-judgment interest against MK obtained by GIT,
or adilitional, related claims against MK and/or the
United States which arise from the DOE project. GIT I,
108 Fed. Cl. at 170. The court therefore concluded , and

App-20

Case: L .Jll0

8

Document: 68-2

Page : 8

. .2d: 07/28/2015

GROUND IMPROVEMENT TECHNIQUES v. US

It is undisput ed that when GIT filed for bankruptcy ,
its assets-including
its claims in the GIT-MK litigation-became
part of the bankruptcy estate.
See 11
U.S.C. § 541(a); Aaron v. United States , 65 Fed. Cl. 29, 31
(Fed. Cl. 2005) ("It is well established that the bankruptcy
estate thus includes all 'causes of action' owned by the
debtor at the time of filing for bankruptcy. "). The central
question in this case , therefore, is whether the events
during bankruptcy transferred
GIT 's claims from its
bankruptcy estate to the Secured Creditors. Based on the
plain language of the docum ents involved in the bankruptcy proceedings , the answer is clearly yes.
Most significantly , GIT 's Reorganization Plan states
that: "GIT will assign ... any and all claims, causes of
action , right, title , and interest in and to the [GIT-MK
litigation]" to the Secured Parties and provides for t he
distribution of proceeds in excess of the Secured Parties'
claims to the unsecured creditors. J.A. 418. A debtor
submitting such a plan only retains the power over claims
or interests if the plan expressly states so. See 11 U.S.C.
§ l 123(b)(3)(B). Here , not only did the Reorganization
Plan fail to includ e any such reservation clause , th e plan
instead specifically passed GIT 's rights in the GIT-MK
litigation over to the Secured Parties.
Additional documents involved in the proceedings confirm the transfer of claims in the GIT-MK litigation to the
Secured Parties.
For example, under the Agreement
Respecting Litigation , the proceeds from the GIT-MK
litigation were to be distributed to the bankruptcy estate
and the creditors , but not to GIT itself. J.A 432-42. And

we agr ee, that all of GIT's claims in this case "arise from
and are inseparable from " those that GIT brought against
MK in the GIT-MK litigation , and that the real party in
interest is the same regardless of how the claims are
described. Id .

App -21

Case: L J110

Document: 68-2

Page: 9

. .,2d: 07/28/2015

GROUND IMPROVEMENT TECHNIQ UES v . US

9

the bankruptcy court's Clarifying Order specified that ,
pursuant to the transfer clause in the Reorganization
Plan , "the Secured Parties may either direct the Debtor to
assign to the Secured Parties or their designee all of the
Debtor 's rights and interest in the [GIT-MK litigation] or ,
at their option, continue prosecution of the [GIT-MK
litigation] in GIT's name in lieu of an assignment. " J.A.
479 . Together, the Reorganization Plan, Agreement
Respecting Litigation , and Clarifying Order all make
clear that the Secured Parties had replaced GIT as the
ones "to whose present , personal benefit a money judgment" from the GIT-MK litigation runs. Crone, 538 F.2d
at 882.
GIT's arguments to the contrary are unpersuasive.
First, GIT's reading of the Clarifying Order borders on the
incredible. The Clarifying Order clearly states that "the
Secured Parties " could continue prosecution of the GITMK litigation in GIT's name in lieu of an assignment.
J.A. 479 (emphasis added). To support its claim that GIT
continued to control the litigation, GIT simply replaces
"the Secured Parties" with "GIT." See Corrected Appellants ' Br. 21-22 ("It is clear from the language of the
Order that GIT could continue 'prosecution of the MK
Case in GIT's name in lieu of an assignment."'). This
overt misreading of the court's order cannot support GIT's
claim.
Second, GIT's focus on the language "will assign" from
the Reorganization Plan , J.A. 479, and the fact that "[n]o
assignment or transfer was ever consummated ," Corrected Appellants' Br. 22, gets it no further. Of course there
was no assignment; as permitted by the Clarifying Order,
the Secured Parties elected the option of continuing
litigation in the name of GIT, rather than having GIT
directly assign its claims over to the Secured Parties.
GIT's complaint that there was never a formal assignment is beside the point.

App-22

Case: L

10

_1.10

Document: 68-2

Page: 10

.,ed: 07/28/2015

GROUND IMPROVEME NT TE CHN IQUES v. US

Finally , GIT's argument that it remain ed a "deb tor-inposses sion" with both th e power to pursu e th e GIT-MK
litigation claims as well as the fiduciar y obligation to it s
unsecured creditors to do so also fails. While a debtor-inpossession may hav e most of the powers of a bankruptcy
trustee to pursue claims on behalf of the bankruptcy
estate when the bankruptcy proceedings are initiated , 11
U.S.C. § 1107(a) , the bankruptcy estate-and
accordingly ,
the debtor-in-possession 's authority to pursue claimsceases to exist upon confirmation of a reorganization plan ,
In re United Operating, LLC , 540 F.3d 351, 355 (5th Cir.
2008). Thus , while GIT may have initially possessed
rights to pursue the claims in the GIT-MK litigation ,
those right s were extinguished upon the Pennsylvania
bankruptcy court's confirmation of the Reorganization
Plan . This conclusion is not obviated by the GIT 's citation
to snippets from the Reorganization Plan and other places
where the bankruptcy court continued to refer to GIT as a
debtor-in-possession . The court's use of such language
appears merely to be boilerplate, and in any event, cannot
overcome the strong evidence showing that a transfer of
rights occurred in thi s case.
For all of these reasons , we agree with the Court of
Federal Claims that GIT's bankruptcy effected a transfer
of GIT 's claims related to the DOE project to the Secured
Parties , and that the Secured Parties , and not GIT , are
the real parties in interest in this case.

II
When it has been determined that a plaintiff is not
the real party in interest , the court must allow the plaintiff a reasonable amount of time to cure the defect
through substitution, joinder , or ratification. See RCFC
17(a)(3). Here , the Court of Federal Claims requested
briefing from both GIT and th e Secured Parties regarding
how to move forward in light of the real parties in interest
issue . The parties responded with conflicting proposals:

App-23

Case: L

_J.10

Document: 68-2

Page: 11

GROUND IMPROVEMENT TECHNIQUES v. US

. .1ed:07/28/2015

11

while GIT sought to continue as a plaintiff (supported by
ratifications of Mr. Huff and Mr . Kinghorn) , three of the
Secured Parties (PNC , Fireman 's Fund , and Robinson)
sought to be substituted as the sole plaintiffs in the suit
with the obligation to distribute the proceeds in accordance with the Agreement Respecting Litigation and the
Reorganization Plan . The Court of Federal Claims opted
for substitution, finding that PNC , Fireman's Fund , and
Robinson "possess[ed] the voting power to make operating
decision s for plaintiffs in thi s suit" and that joinder of GIT
was inappropriate
"for the simple reason that postbankruptcy GIT has no financial interest in claims arising
from the DOE project. " See GIT III , 2014 WL 1711004 , at
*6- 7.
On appeal, GIT argues that the Court of Federal
Claims should have permitted GIT 's continued presence
as a ratified plaintiff under either the rules governing
required joinder , RCFC 19, or permissive joinder , RCFC
20. According to GIT, it must remain a plaintiff in this
suit in order "to ensure the procedural integrity of the
action and to protect the rights and interest of Huff ,
Kinghorn , and the unsecured creditors. " Corrected Appellants ' Br . 42. In response , PNC , Fireman's Fund , and
Robinson argue that th eir substitution is fully supported
by the Agreement Resp ect ing Litigation , and that the
requirements for neither required nor permissive joinder
are met here .
We agree with PNC, Fireman 's Fund , and Robinson.
Most important to our conclusion is the Agreement Respecting Litigation , which was signed by all five of the
Secured Parties (including Mr. Huff) as well as Mr. Kinghorn. GIT has not disputed that , pursuant to the agreement's terms , PNC , Fireman 's Fund, and Robinson
together hold the requisite 70% and 75% interests to
control decisions regarding choice of counsel and litigation
conduct, respectively.
J.A. 431-42.
Mr . Huff and Mr.
Kinghorn, pursuant to terms to which they agreed , do not

App-24

Case: L ..,110

12

Document: 68-2

Page: 12

. ,led: 07/28/2015

GROUl\1D IMPRO\ "El\1ENT TECHNIQUES v. US

hold enough interest to dir ect such decisions. Given that
Mr. Huff and Mr. Kinghorn have expre ssly signed away
their control , GIT 's argument , premised as it is on protecting the rights of Mr. Huff and Mr. Kinghorn , loses its
force. As the Court of Federal Claims rightly held: "Just
becaus e one of the Secured Partie s (Mr. Huff) and an
equity holder in GIT (Mr. Kinghorn) might be able to
benefit from a judgment won in this court does not mean
that Mr. Kinghorn or Mr. Huff may flout the Agreem ent
[Respecting Litigation] and its terms ." GIT III , 2014 WL
1711004, at *5.
GIT's argument that it must continue as plaintiff in
order to protect the rights of the unsecured creditors also
fails , this time because of the provisions of the Reorganization Plan. In order for a bankruptcy court to confirm a
debtor 's reorganization plan , the debtor must show that
the r eorganization plan adequately protects the righ ts
and interests of the unsecured creditors. See 11 U.S.C.
§ 1129(b)(2)(B). Here , GIT's Reorganization Plan addresses the interests of th e unsecur ed creditors in multiple places. Most particularly, the plan requires that
creditors holding unsecured claims be paid on a pro rat.a
basis in the following manner: (1) the first $ 125,000 of the
net proceeds of the GIT-MK litigation; (2) the net proceeds
of the GIT-MK litigation , if any , remaining after the
claims of the Secured Parties are satisfied in full ; (3) up to
$120,000 to be paid by GIT 's shareholders over a period of
five years; and (4) a dividend of $600 ,000 to be paid by
GIT, with payments made on an annual basis over a
period of five years. J.A. 423. The Reorganization Plan
thus already sets forth the ways in which the claims of
the unsecured creditors shall be satisfied.
At its core, GIT's argument is that , "because a significa nt portion of the Secured Creditors claims hav e been
disbursed , there is no incentive for the Secured Creditors

App-25

Case: L

JllO

Document: 68-2

Page: 13

GROUND IMPROVE!\1E NT TECHNIQUES v. US

,led: 07/28/2015

13

to maximize recovery against the government." Corrected
Appellants ' Br. 42. While this may or may not be true , 3 it
is not reason to avoid the plain language of the governing
documents in this case.
We also agree with the Court of Federal Claims that
joinder of GIT is not appropriate under either RCFC 19 or
20. Under RCFC 19, a person must be joined as a party if
that person "claims an interest relating to the subject of
the action and is so situated that disposing of the action
in the person 's absence may ... as a practical matter
impair or impede the person 's ability to protect the interest. " RCFC 19(a)(l)(B)(i). Under RCFC 20, persons may
be _ioined as a party if "they assert any right to relief
jointly , severally , or in the alternative with respect to or
arising out of the same transaction , occurrence , or series
of transactions or occurrences ; and ... any question of law
or fact common to all plaintiffs will arise in the action. "
RCFC 20(a)(l).
Here , as the Court of Federal Claims observed , GIT
no longer has any "financial interest in claims arising
from the DOE project . Those claims were transferred to
the Secured Parties in the GIT bankruptcy litigation ."
GIT III , 2014 WL 1711004 , at *7. GIT, therefore , does not
"claim □ an interest relating to the subject of the action"
as required by RCFC 19 or have "any right to relief' as
required by RCFC 20. Thus, neither mandatory nor
permissive joinder is appropriate.

It remains unclear to us which of the multitude of
competing bankruptcy claims have been fully satisfied ,
which have been partially satisfi ed, and which remain
outstanding.
Thus , even if we were inclined to elevate
GIT's fairness concerns over the language of the governing documents (which we are not) , we are unable to fully
analyze GIT's argument.
3

App-26

Case: L .J110

14

Document: 68-2

Page: 14

. ,led: 07/28/2015

GROUND IMPROVEMENT TECHNIQUES v. US

III
The Court of Federal Claims dismissed Counts I-III
(brought in GIT 's own name) for lack of privity between
GIT and the government, and therefore lack of jurisdiction. GIT I, 108 Fed. Cl. at 172-82. 4 In doing so, the
court examined and found lacking GIT 's many arguments
based on theories of direct contract , implied-in-fact contract , and agency . On appeal , GIT again argues that
privity between itself and th e government exists under
multiple theories. Like the Court of Federal Claims , we
reject GIT 's arguments.
Pursuant to the Tucker Act, the Court of Federal
Claims has jurisdiction over claims against the government involving "any express or implied contract with the
United States ." 28 U.S.C. § 1491(a)(l ). Similarly , the
Contract Disputes Act provides that "a contractor may
bring an action directly on the claim in the United States
Court of Federal Claims. " 41 U.S.C. § 7104(b)(l). Because a subcontractor ordinarily lacks privity with the
government, the Court of Federal Claims generally lacks
jurisdiction over claims brought by a subcontractor

4

Although the Court of F ederal Claims viewed
GIT's claims against the government as indistinct from
those transferred to the Secured Parties in GIT 's bankruptcy , the court nonetheless went on to consider whether, "to the extent that GIT has alleged that it possessed
distinct claims against the United States ," there was
privity of contract between GIT and the government such
that subject matter jurisdiction over such claims existed.
GIT I, 108 Fed. Cl. at 171-72.
Because we hold that GIT is not in privity with the
government , we have no occasion to consider whether
GIT, which we have held is no longer a debtor-inpossession , has any standing to assert a claim again st the
government .

App-27

Case: L ..,110

Document: 68-2

Page: 15

GROUND IMPRO VEMENT TECHNIQ UES v. US

. ,led: 07/28/2015

15

against the government , though there are some exceptions. See J.G .B. Enters., Inc. u. United States , 497 F.3d
1259, 1261 (Fed. Cir. 2007) ("A subcontractor typically is
unable to seek reli ef against the United Stat es on a
dispute over the contract since it is not a party to the
contract and thus lack s privity with the United States. ");
United States u. Johnson Controls, In c., 713 F.2d 1541
(Fed. Cir. 1983) (concluding that the case did not "fall
within any recognized exception to the well-entrenched
rule that a subcontractor ca nnot bring a direct appeal
against the government"). Whether a contract exists is a
mixed question of law and fact , but where "the parties do
not dispute the relevant facts , the privity issue reduces to
a questio n of law , which we review de nouo." Cienega
Gardens v. United States, 194 F.3d 1231, 1239 (Fed. Cir.
1998).
Here , it is indisputabl e that no direct contract between GIT and the government exists . There are two
relevant contracts in this case. The first is the MK prime
contract , which was entered into between MK and DOE
more than a decade before GIT's involvement in the
project. The second is the GIT subcontract , which plainly
states that it is a "SUBCONTRACT " between MK and
GIT and was made "[u]nder DOE Prime Contract No. DEAC04-83AL 18796 ," the MK prime contract.
J.A. 89.
Given the plain language of these contracts , GIT admits,
as it must , that it does not have a direct contract with the
government. See Corrected Appellants ' Br. 39 ("[T]he GIT
contract is not expressly with the Government .... ").
There is also no implied-in-fact contract betw ee n GIT
and the government. "An implied-in-fact contract is one
'founded upon a meeting of the minds , which , although
not embodied in an express contract , is inferred , as a fact
from conduct of the parties showing, in the light of the
surrounding circumstances , their tacit understanding ."'
City of Cincinnati u. United States , 153 F.3d 1375, 1377
(Fed. Cir. 1998) (quoting Baltimore & Ohio R.R. Co. u

App-28

Case: L ...,110

16

Document: 68-2

Page: 16

. iled: 07/28/2015

GROUND IMPROVEMENT TECHNIQ UES v. US

United States , 261 U.S. 592, 597 (1923)) ; see also City of
El Centro v. United States , 922 F.2d 816, 820 (Fed. Cir.
1990) ("An implied-in-fact contract requires findings of: 1)
mutuality of intent to contract; 2) consideration; and 3)
lack of ambiguity in offer and acceptance."). Here , GIT
has failed to show that there was a meeting of the minds
between the government and GIT that an implied-in-fact
contract existed. To the contrary , the DOE contracting
offer expressed the opposite intent by specifically disclaiming "any privity of contract with the subcontractor "
when providing its consent for the GIT subcontract. J.A
362. Moreover, there cannot be an implied-in-fact contract between GIT and the government when , as here,
there are already two express contracts governing the
same subject matter for which GIT now seeks to establish
an implied contract. See Schism v. United States , 316
F.3d 1259, 1278 (Fed. Cu·. 2002) (en bane) ("It is well
settled that the existence of an express contract precludes
the existence of an implied-in-fact contract dealing with
the same subject matter , unles s the implied contract is
entirely unrelated to the express contract.").
GIT's leading argument for the existence of privity in
this case is based on drawing factual analogies to a decision by the Energy Board of Contract Appeals ("EBCA"),
McMillan Bros. Constr., EBCA No. 328-10-84 , 86-3
B.C.A. P. 17179, 1986 WL 20168 (July 11, 1986). But
decisions of the EBCA are not binding on this court.
Rather, we examine questions relating to privit y under
our own jurisprudence.
Here, as we held in Johnson
Controls, GIT has failed to show that this case "fall[s]
within any recognized exception to the well-entrenched
rule that a subcontractor cannot bring a direct appeal
against the government." 713 F.2d at 1550.
Specifically, in Johnson Controls, we recognized that
privity between a subcontractor and the government may
exist if the prime contractor was acting as an agent of the
Id. at 1551-52 . However, we rejected in
government.

App-29

Case: L

JllO

Document: 68-2

Page: 17

.led: 07/28/2015

GROUND IMPROVEMENT TECHNIQUES v. US

17

that case a subcontractor's claim based on agenc y privity
because the following three "crucial factors" were mis sing:
The prime contractor was (1) acting as a purchasing agent for the government, (2) the agency relationship between the government and the prime
contractor was established by clear contractual
consent, and (3) the contract stated that the government would be directly liable to the vendors for
the purchase price.
Id. at 1551.
These three factors are missing in this case as well.
Here , the relevant contracts did not state that MK was
acting as the purchasing agent for DOE , did not provide
"clear contractual consent" for such relationship, and did
not state that DOE would be directly liable to GIT for the
contract price. Specifically, with respect to the first two
factors , the MK prime contract specified that MK itselfnot DOE-was to enter into subcontracts.
J .A. 193- 95.
And it made clear that MK was responsibl e, not simply
for contracting with someone else to work for DOE, but
actually performing work under the contract , including
"furnish[ing] all labor , material , facilities , services,
equipment, superintendence and administration necessary to accomplish engineering, design , construction , and
inspection services." J.A. 178-79 . With respect to the
third factor , the GIT subcontract provided that MK, not
DOE, would pay GIT the price for the subcontract. J.A.
130. And , contrary to GIT's argument , the fact that the
DOE posted a letter of credit to ensure payment, and
directed payment through a dedicated bank account , is
not enough to establish an agency relationship between
MK and DOE here .
GIT argues that "the totality of the individual contractual provisions present a principal-agent relationship," pointing in support to clauses requiring MK to
obtain DOE approval for certain actions. But the need for

A pp-30

Case: L ...)110

Document: 68-2

18

Page: 18

iled: 07/28/2015

GROUND IMPROVEMENT TECHNIQUES v. US

MK to obtain DOE approval does not create an agency
relationship. As we observed in Johnson Controls, "fi]t is
true that the government here has retained a great deal
of control over the actions of [the contractor] in its dealings with the subcontractors on the project. But it is also
apparent that the government meant to use [the contractor] as a buffer between it and the claims of subcontractors. " 713 F.2d at 1552. In sum, GIT has failed to
establish privity with DOE under an agency theory.
GIT has also failed to establish privity with DOE under four additional factors discussed in Johnson Controls ,
sometimes referred to as the "otherwise in privity " test.
Id. at 1552-53 ; RMI Titanium Co. v. Westinghouse Elec.
Corp., 78 F.3d 1125, 1139 (6th Cir. 1996). Those four
factors, which led to the conclusion that a direct subcontractor appeal was not permitted in Johnson Controls,
are:
(1) the government and [subcontractor] never entered into a direct contractual relationship; (2) the
'ABC' clause , contained in both the prime contract
and the subcontract , specifically disclaimed a contractual relationship between the government and
[subcontractor]; (3) [the contractor] was required
to obtain a Miller Act payment bond, which provided a recourse by the subcontractor other than a
direct appeal; and (4) there is no provision in any
of the contract documents that clearly authorizes
a direct appeal by a subcontractor.
713 F.2d at 1552-53.
On balance , these four factors weigh against GIT 's direct subcontractor appeal in this case as well. With
respect to the first factor, no direct contractual relationship between GIT and the government exists, for the
reasons already explained . With re spect to the second
factor , GIT is correct that there is no contractual provision expressly disclaiming privity between GIT and the

A pp-31

Case: 1::, _.LlO

Document: 68-2

Page: 19

GROUND IMPROVEMENT TECHNIQUES v. US

.. ,ed: 07/28/2015

19

government. But the DOE, in providing its consent for
the GIT su bcontract , specifically stated that there would
be no privity of contract with the subcontractor. J .A. 362.
And although this disclaimer was not written into the
contract, as it was in Johnson Controls, its presence
nonetheless weighs against a finding of pri vity. With
respect to the third factor, it is true that GIT did not
obtain Miller Act payment bonds as a substitute for a
direct remedy against the government, as the subcontractor did in Johnson Controls. But Johnson Controls does
not state that the absence of Miller Act bonds creates
jurisdiction over direct subcontractor appeals. And in any
event, the fourth factor-whether
any contractual provision "clearly authorizes a direct appeal by a contractor "weighs against GIT's direct action against the government in this case. Here, the "Disputes" clause upon which
GIT relies says merely that the applicable substantive
law is the "body of law applicable to procurement of goods
and services by the Government." J.A. 131. As already
explained, the rule under the relevant "body of law " is
that "[a] subcontractor typically is unable to seek relief
against the United States on a dispute over the contract
since it is not a party to the contract and thus lacks
privity with the United States." J.G.B. Enters., 497 F.3d
at 1261. GIT has failed to show why that rule does not
apply here.
We therefore agree with the Court of Federal Claims
that privity , and thus jurisdiction , is lacking as to GIT's
Counts I-III brought in its own name against the government. We do not address Count IV, brought in MK's
name for the benefit of GIT, which still remains in this
case.
CONCLUSION

For the foregoing reasons , we affirm th e decisions by
the Court of Federal Claims that: (i) GIT is not the real
party in interest for the claims in this suit; (ii) PNC,

App-32

Case: L .,110

20

Document: 68-2

Page: 20

. ,led: 07/28/2015

GROUND IMPRO VEMENT TECHNIQ UES v. US

Fireman 's Fund, and Robinson shou ld be substituted as
sole plaintiffs in this suit; and (iii) there is no privity
between GIT and the government , and thus no jurisdiction over GIT 's Counts I-III brought in GIT 's own name
against the government. Given our decision on the merits , we deny as moot the motion by PNC , Fireman 's Fund ,
and Robinson for voluntary dismissal of this appeal. We
note that our decision does not address any remaining
issues with respect to Count IV, which we leave for further consideration by the Court of Federal Claims.
AFFIRMED

App-33

Case 1:12-

)0057-LJB

Document 57

Filed 04

/14 Page 1 of 15

JfntlJrijfniteb~tutrS'~ourtofjf ebcral~laitnS'
No . 12-57 C
(Filed April 30 , 20 I 4 )

UNPUBLISHED

*************

**

**

*
*

GROUND IMPROVEMENT
TECHNIQUES . INC ., for the use and
benefit of the secured creditors of
GROUND IMPROVEMENT
TECHNIQUES , INC. ; and , MK
FERGUSON COMPANY , for the use and
benefit of GROUND IMPROVEMENT
TECHNIQUES , INC .,

*

*
*
*

*
*
*

*
*

*

Plaintiffs ,

*
*
*

V.

RCFC l 7(a); Real Partie s
in Interest for Claims
Transferred to Creditors in
Bankruptcy Case; Neither
Mandatory Nor
Pennissive Joinder Under
Rules 19 and 20 Applies ;
Substitution of Real
Parties in Interest and
Counsel Granted.

*

THE UNITED STATES ,

*

Defendant .

1

*

*

*************

* * **

*

Robert G. Barbour, McLean , VA , for plaintiff s (the real parties in interest ).
Steven R. Schooley, Orlando, FL , counsel for plaintiffs (the nominal
plaintiffs) . Frederick Huf]; Littleton, CO, of counsel for plaintiffs (the nominal
plaintiffs ).

1

Defendant did not participalc in the moti ons resol\' ed in thi s opinion. 1l1e capti on of
thi s case ha s been corre cted to reflect the court 's ruling in thi s opinion and order.

App-34

Case 1:12-

)0057-LJB

Document 57 Filed 04

'14 Page 2 of 15

OPINION AND ORDER

Bush. ,')'enior J11c(~e
.

The court has before it cross-motions which contest the issue of U1eproper
entities to adYance claims for plaintiffs , as well as the choice of counsel to
represent plaintiffs . The title s of the motions are not of much assistance here ,
because competing factions claim legitimac y as plaintiffs in thi s dispute . For U1e
sake of clarity , the court distinguishes between the Real Parties· Motion to
Substitute (and the Real Parties· Reply ). and the Nom inal Plaintiff s· Motion for
Ratification/Joinder (and the Nominal Plaintiffs· Reply ).2 On July 12, 20 13, the
court stayed the cross-motions of these competing factions pending an appeal of
prior rulings of this court to the United States Court of Appeals for the Federal
Circuit. Subsequently , however, the Federal Circuit stayed the appeal before it to
pem1it a " limited remand " to thi s court to decide those pending cross-motions
regarding the substitution of real partie s in interest and counsel. For the reasons
stated below , substitution of the real parties in interest is granted, and Mr . Robert
G . Barbour is substituted for Mr. Steven R. Schooley to represent plaintiffs in this
suit.

BACKGROUND3
I.

Overvie·w of the Current Dispute

2
/

1l1e actual title s of these briefs are : (I) Motion to Substitute the Real Partie s in
InteresUMotion to Substitute Counsel, filed May 24. 2013; (2) Plaintiffs· Ground Improvement
Techniques , Inc. and MK-Ferguson Company Response to the Motion to Substitute and CrossMotion to Ratify Plaintiff.,;, filed June 7, 2013 : (3) Secured Parties ' Reply to Response to Motion
to Substitute and Response to Cross Motion to Ratif y, filed June 14, 2013 ; and , (4) Plaintiff s'
Ground Improvement Techniques , Inc . and MK-Ferguson Company Reply to the Secured
Parties· Response to Cross-Motion to Ratify Plaintiffs , filed June 21, 2013 . The entities and
individuals that are aligned with the factions refere nced herein as " Real Parties· • and "N ominal
PlaintifTs·• will be discu ssed infra.
3
/

This background infonnation is drawn largely from th e parties ' filings in thi s case and
does not constitute fact finding by the court .
2

App-35

Case 1:12-1

0057-LJB

Document 57 Filed 04

14 Page 3 of 15

Most of the rele\'ant background for this dispute ma}· be fmmd in
Gro1111dImprovement Techniques, Inc. I'. United ,')'/ales. I 08 Fed . Cl. 162(20 12)
(G IT n and Ground Imprm ·ement Techniques, Inc. v. { ;nited S1atl:'s, No . I 2-57C
(Fed . Cl. May 3. 2013) (GIT fl) . On ly the facts essentia l to the dispute currently
before the court are presented here . As a threshold obse1Yation, the court note s that
the Nominal Plaintiffs disagree\\ ith the court's prior holding s regarding the real
parties in intere st to present plaintiff s' claims in this suit. Nominal Plaintiffs· Mot.
at 3. Nonetheless , the court· s holding s in this regard in GIT I and GIT fl are
currently on appeal and are not \'l·ithin the scope of the limited remand from the
Federal Circuit. Thus , the primary (and relatively narro\ v) question currently
before the court is whether the real parties in interest identified by the court in GIT
I and GIT fl will simply substitute them se lves for the Nominal Plaintiffs as the
plnintiff s prosecuting this suit. or ,\ ·hcthcr some other configurnti on of plaintiffs
will proceed in this suit. A secondary question is the choice of counsel to represent
ph1intiffs in this suit.

II.

Contract Disputes Litigation and Bankruptcy Proceedings

In 1995, Ground Improvement Techniques , Inc . (GIT) became the
subcontractor for MK-Ferguson Company (MK) on a United States Department of
Energy project in Slick Rock , Colorado (the DOE project ) for the remediation of
uranium mill tailings .4 During the course of performance , GIT's subco ntract was
tenninated for default and the tennination thereafter became the subject of
litigation between fv1Kand GIT in the United States District Court for the District
of Colorado (the GIT-:MK litigation ). During the course of that litigation , which ,
including various appeals, lasted at least twelve yea rs, GIT filed for bankruptcy
under Chapter 11 of the Bankruptcy Code , in the United States Bankruptcy Court
for the Western District of Pennsylvania (the GIT bankruptcy litigation) .
As a result of GJT 's bankruptcy , GIT' s claims against MK , except for a
dividend of$ 125,000 for GIT ' s unsecured creditors , were transferred to five of
GJT ' s creditors (the Secured Parties): PNC Bank , Fireman ' s Fund Insurance
Company , Holland & Knight LLP , The Law Offices of Frederick Huff (Mr. Huff) ,
and RN . Robinson & Son, Inc . The Secured Parties elected to continue litigation
against :MK in the name of GIT, rather than directing GIT to assign its claims

4

M'K ha s undergone multiple co rporate name changes , and will be referred to as ~1'K
even in reference to events which occurred after tho se name change s.
3

App-36

Case 1:12-c

.10057-LJB

Documen t 57 Filed 04/,

14 Page 4 of 15

aga inst MK to the Secured Partie s . GIT e, ·en rually ohta incd a large judgment
agains t MK , \\"hich \\'as partially satisfied by a surety in 2009.
In 2001, MK , too. riled for bankruptc~ · under Chapte r 11 of the Bankruptcy
Code, in the United States Ba nkrupt cy Court for the District o f Nevada (the MK
hankruptcy litigati on). The unsa tislled porti on or GJT" s judgment aga inst MK, and
pos t-judgment intere st. were claim s admini stered in MK· s bankruptcy . The
bankruptcy court required MK to file a certified claim \Yith DOE to attempt to
satisfy GJT"s claims against MK rel ated to the DOE project. MK c.lidso, hut the
certificati on was contested as inadequate.
The MK bankruptcy court eventua11y ordered GIT itself to file GIT's claims
\\'ith nor.·scon tracting officer under MK ·s name. and to certif y its 0 \\11 claim s.
GIT also filed a certified claim in its own name with the DOE contracting officer.
Having received no response from the contracting officer on its claim s, GIT filed a
"deemed denied " suit in this court for the clain1s submitted to the contracting
officer in its own name and in MK ' s name (for the benefit of GIT). Count s l-1II of
the compl aint , claims brought directl y by GIT against the United States , were
dismissed by this court for lack of privity between GIT (the subc ontract or on the
DO E project ) and the United States. The only remaining claim in thi s suit (Count
IV of the complaint) is the claim in MK ' s name for the benefit of GIT , a type of
claim that is sometim es referred to as a pass-through claim.
Ill.

This Court's Holding Regardi ng the Real Parties in Interest Issue

Defendant asserted that GIT was not the real part y in intere st to bring this
suit against the United States for claim s related to the DOE Project. The prima ry
thru st of the government ' s argun1ent was that when GIT went thr ough bankruptc y,
any claim s it possesse d against MK and the United States were transferred to
GIT" s creditors . Plaintiff s conceded that certain of GJT ' s credit ors might receive
some benefit from this suit, but contend ed that post-bankruptc y GIT would be the
maj or beneficiar y of thi s action.
Defendant's arguments were persuas ive , because GIT ' s bankruptcy effected
a transfer of GIT ' s claims against MK to the Secured Parties . The court cited
numero us court docwnent s v,1hich showe d that the Secured Parties, not GJT , ov,in
the claims against .tv1Kand the United States . See GIT I, 108 Fed . Cl. at 169-70
( citing GIT ' s Second Amended Plan of Reorganization , a related Ag reement
4

Ap p-37

Case 1:12-c...-1
)005 7-LJB

Document 57

Filed 04/-:>
J /14

Page 5 of 15

Respecting Litigati on . and co urt orders in the GIT-MK litigation and the MK
bankruptc~ litigati on) . Plaintiff s· arguments to the co ntrary, unsupp011ed by legal
authority , \\·ere either reruted h~' the court docu ment s cited hy defendant or \\e re
irrele va nt to the real partie s in interest issue . See id. at 170-71 (noting tha t
plaintiffs · arguments found no support in court doc ument s, and that GJT ' s rights to
any proce eds from its claims against MK and the Uni ted States are nm, held h~· the
Secured Parties , \\'ith any excess to be awarded to GIT s unsecu red cred itors). The
~ourt therefo re concluded that GIT s claim s again st 1\1Kare no\ v held hy the
Secured Parties and that the Secured Parties are the real partie s in intere st for Glr s
claim s again st MK related to the DOE proje ct, and to an~- related claim s against the
United State s. Id. at 171.
The court held , further , that the Secured Partie s are the real parti es in interes t
for the pas s-through claim presented in Count IV of the complaint. GIT is merel y
the nominal plaintiff for the intere sts of the Secured Parties in the remaining claim
in thi s suit. Id. The court therefor e ordered GIT to file a notice de scribing the
method by which the real parti es in interest would participate in this suit , pursuant
to Rule 17(a)(3) of the Rule s of the United States Court of Federal Claims (RCFC) .
Under the rule s of this court , to avoid dismi ssal of a suit the permi ssible types of
participation in litigation for a real party in interest are ratification of the nominal
plaintiff , substitution of the real part y for the nominal plaintiff , or joinder of the
real party . RCFC 17(a).
On Februar y 8, 2013 , GIT filed a motion for recon siderati on of the court ' s
ruling on the real partie s in inter est issue, which vvas accompanied by a notic e

pre senting its position that the Nominal Plaintiffs should continue to repre sent the
intere sts of the Secured Parties , through ratification . Mr . Barbour also filed
document s on February 8, 2013 which were intended to show that the Secured
Partie s opted for substitution of the real parties in intere st as plaintiffs in this suit ,
and that they rejected ratification of GIT as plaintiff. The co urt deferred ruling on
the substituti on issue , and instead issued an opinion on May 3, 2013 den ying GIT's
moti on for reconsideration of the real part y in intere st holding in GIT I. See GIT
ff , slip op . al 8-9.
The parties then briefed the substitution issue . Thal briefing is now
complete and ripe for a ruling . As noted supra , the primary dispute concerns
control over the litigati on of plaintiffs ' claims (w hich were brought in the names of

5

App-38

Case 1:12-c" 0OO57-LJB Document 57

Filed O4/::ivt14 Page 6 of 15

GIT and MK and ,, hich \\i ll proceed w1de r the names of those no minal pluinti ffs) .'
co unse l to represe nt plaintif fs. interests.
The seco nd ary issue is the cho ice

or

DISCUSSION

I.

Requirement that Actions be Brought by the Real Parties in Interest

As ide from ce rtain exce ption s not releYant here ... la ]n ac tion rn ust be
pro secut ed in the name of the real party in intere st.,. RCFC 17(a)(I ). Thi s court
has sta ted that ·'fw]ithin the contex t of RCFC l 7(a ), a rea l party in interest has been
defined as the party that ' possesses the right to be enf orced .. ,. Gra ss I alley
Ten ·ace v. United States , 69 Fed . Cl. 543 , 546 (2006) (c itation omitt ed). When a
pl ainti ff ha s hcen detenn ined to not he the real party in intere st for a claim . this
court may allow that plaintiff a rea sonable amount of time to cure the defect , either
thr ough sub stituti on of the real part y in intere st, j oinder or ratification . RCFC
l 7(a)(3); see A ldridge v. United S tates, 59 Fed . Cl. 387 , 390 (2004) (requiring the
submi ss ion of evid ence , ,vi thin a certain peri od of tim e, to detem1ine if a
bankruptc y tru stee had abandoned a claim to the debtor -pl aintiff or wi shed to asse rt
the cla in1 in thi s court for the benefit of th e bankruptc y estate ); see also F irst
Hartford Corp. Pension P lan & Tn1st v. United S tates, 194 F.3d 1279 , 1289 (Fed.
Cir. 1999) (s tating that RCFC 17(a) "sets forth the broad and general principle that
ac tion s should be brought in the name of the re al part y in inter es t and that court s
should be lenient in permitting ratification , joinder , or sub stitution of that part y").
Failur e to pro secute an action in the name of the real party in inter est, unless cured
by the meth ods referenced in RCF C 17(a)(3) , will re sult in the dismi ssal of the
claim .6 See, e.g., Norega v. United States , 1I 3 F. Supp . 46 3, 464 (Ct. Cl. 1953);
Aldridge, 59 Fe d. Cl. at 390 .

II.

The Competing Factions Referenced Herein as "Real Parties" and
"Nominal Plai ntiffs"

~, 1l1e capt ion of thi s opinion reflects th e court· s holdin g in thi s re gard. 111e Secured
Parti es are th e rea l parti es in interes t for thi s suit. and have been substitut ed for GIT. G IT and
MK rem ain in th e capt ion merely as nom inal pl aintiff s for th e use and ultimat e benefit of th e
Sec ured Parti es .
6
/

1l1e co urt m ay re ly on relevant court doc um ents submitt ed by th e parties to resolve a
rea l party in interest ch allenge . GIT I. 108 Fed . Cl. at 169 n.5.
6

App-39

Case 1:12-c11J005 7-LJB Document 57 Filed 04/jv/ 14 Page 7 of 15

Since thi s court iss ued its real party in intere st holding in G/'l" /. there ha s
been an apparent split among the Secured Partie s as to whether GIT should remain
in contro l of the prosecution of thi s suit. To reiterate . the Secured Partie s consist
o f PN C Bank . Fireman ·s Fund In surance Company , Ilolland & Knight LLP . The
La\\ Office s of Frederick I-luff (Mr. Huff) , and R.N . Robin son & Son . lnc . One
faction , \Yhich the court designate s as the --Nominal Plaintiffs .·· only ha s the
support . among the Secured Partie s, of Mr . Huff. The other faction . which the
court references as the ·'Real Partie s;· is compo sed of PNC Bank , Fireman · s Fund
In surance Company , and R.N . Robin son & Sons , Inc .A lthough of only tangential relevance to thi s dispute , the Nominal Plaintiff s
faction al so has the support of Robert E. Kinghorn , who apparentl y at the time
GIT"s hankmptc~ · held an equity interest of 25 % in G IT . See Def. ·s Br . of Mar . 5.
2013 , Ex . 1 at A-14 . Mr. Kinghorn is not identified in the briefing currently before
the court , but an exhibit attached to the complaint identifies Mr . Kinghorn , at least
as of October 28, 2011 , as president of GIT. Compl. Ex . 3 at 3.5 ; see also Def ' s
Br. of Apr. 3 , 2012 , Ex . Eat 4 n .4 (de scribing Mr . Kinghorn as one of the
"principals " of GIT) . In the Nominal P laintiffs ' motion , Mr. Kinghorn is asserted
to have " the greatest monetary interest " in this suit, Nominal Plaintif fs ' Mot. at 2,
and it is further alleged that " [a]lmost all of the unpaid , reimbursable litigation
costs for this litigation have been borne so lel y by Kinghorn ,'· id. at 5.
Unfo rtunat ely for the Nominal Plaintiffs ' latest attempt to retain control of thi s
litigation , Mr . Kinghorn possesses no voting interest as to the operating decisions
regarding the claims presented in this suit - those voting interests are vested solely
in the Secured Parties . Se e infi·a .

or

III.

Analysis
A.

The Agreement Respecting Litigation Fully Supports the Real
Parties' Motion to Substitute

The Real Parties note , first , the court ' s prior holdings in GIT I and GIT II
regarding the transfer to the Secured Parties of plaintiffs ' claims arising from the
DOE project. Real Parties · Mot. ,i,i 1-2 . The Real Parties further note that:

7
/

Holland & Knight LLP h as not been identified as bein g ali gned with either fa ction in
th e brief s before the co urt .
7

App -40

Case 1:12-c11
- J0057-LJB

Docume nt 57 Filec! 04/jv/14

Page 8 of 15

Pursuan t to GJT ' s Seco nd /\mended Plan or
Reorganization , the Secured Partie s exec uted an
Agreem ent Respecting I ,itigation that sets rorth ho\\ U1e
net proceed s Crom GIT s claims against MK " ·ill be
distributed and ho\\ decisions regarding the selection of
co unsel and operating deci sions in the MK I ,itig.ation are
to he made .

Id. ,. 3 (fo otnote omitted) . The Real Partie s then cite to the rele vant paragrnph s or
the Agreement Respecting Litigation (Ag reement) , and note that , together , PNC
Bank, Fireman ' s Fund In surance Company, and R.N . Robinson & Sons, Inc . "have
a sufficient collective interest to select counsel for and make operating deci sion s on
hchalf of the Secured Partie s regardin g the condu ct of [this] I .itigation .-- Id ei 5.
Considering Uie term s of the Agreement , the court concur s ,vith the position
of the Real Parties . First , as to operating decisions , 75% of the voting interests of
the Secured Parties control these decision s, and the voting interests are apportioned
as follows : Fireman •'s Fund Insurance Company (48 .5%); PNC Bank (24 .2%);
R.N . Robinson & Sons, Inc . (18% ); Holland & Knight LLP and the Law Offices of
Frederick Huff (sharing 9.3%). Def. ' s Br . of Apr. 3, 2012 , Ex. C ~\ 2, 9. Thus , for
operating decision s, such as the decision to substitute the Secured Parties for GIT
or to ratify GIT as plaintiff , the Real Partie s have 90 .7% of the voting intere sts and
they control operating decisions in this litigation .
As for choice of counsel , only 70% of the voting interests of the participant s
in the Agreement is required to make thi s deci sion . Def. ' s Br. of Apr. 3, 2012 , Ex .
C ~ 7. Under ever y settlement level for which particip ant interests are identified in
the Agreement, the Real Parties po ssess at lea st 72 .6% of the interest s in thi s
litigation . Id. ,i~ 1-3. Thus , the Real Partie s also possess the power to select
counsel to repre sent tile Secured Parties in this litigation .
Although thi s inescapable conclusion as to the power s afforded by the
Agreement has been evident since GIT I issued on December 5, 2012 , the Nominal
Plaintiffs did not ,, ,illingly cede control of this litigation to the Real Parties.
Instead , when the Real Partie s attempted, through a defective notice , to assert their
rights to control thi s litigation on February 8, 2013 , the Nominal Plaintiffs
countered with their own notice relying , in part , on supporting declarations from
Mr. Kinghorn and Mr . Huff The court allowed the partie s to brief the dispute by
8

App -41

Case 1:12-cv J0057-LJB

Document 57 Filed 04/~v ,14 Page 9 of 15

mean s of the cross-mo tions cun-entl\' before the court.

B.

The Nominal Plaintiffs' Attempts to Avoid the Plain Meaning of
the Agreement

The Nomin al Plaintiff s first attempt to distort this court· s prior holdin gs.
According to the Nominal Plaintiffs , ··1g]iven this Court ·s cu n-en t Yiev1that Glr s
credit ors are no\\ all \·ie\Yed as ·'real partie s in intere st" accordi ngly, [the La\\·
Off ices of Frederi c HuffJ and Kinghorn have sign ifican t intere sts in this matter
thereb y penni tting their continued prosecution of thi s case ." N omina I Plaintiffs·
Mot. at 2 (emphasis add ed). That is not the holding of GIT I. lbe court
reproduces her e the key passage from GIT I:
The court doc uments relied upon by plaintiff s and
defendant show that GIT's bankruptc y effected a transfer
of GIT 's claims against MK to the Secured Parties . First ,
GI T ' s Second Amended Plan of Reorgani zation , and a
subse quent clarification of that plan , vest the right s of
GIT to claims aga inst MK in the Secured Parties .
Second , the Agreement Respecting Litigation shows that
the parti es entitled to net proceed s from GIT ' s claims
against MK are the Secured Partie s, not GIT. Third ,
GIT ' s reorgani zation plan states that any amount of net
proceeds in the GIT-MK litigation that exceeds the
claim s of the Secured Parties against GIT (and the
$125,000 paid to GIT ' s un secured creditors) shall be
distributed to GI T ' s unse cured creditors . Fourth , during
MK 's bankruptc y litig ation, the proceeds from any suit
again st MK related to GIT's work on the DOE proj ect
were de scribed by the bankruptcy judge as belonging to
the creditors of GIT , not GIT. Fi fth, in the GIT-MK
litigation , the district court observed that GIT 's sole role
was to facilitate the litigation, not to share in any
proceeds that might be obtained, accor ding to the explicit
tenns of GIT ' s reorganization plan .
I08 Fe d. Cl. 169-70 ( citations omitted) . It is the Secured Parties that are the real
parties in interest in this suit, an d the Ag reement governs their management of this
9

App-42

Case 1:12-c, J0057-LJB

Document 57 Filed 04/jv,14

Page 10 of 15

suit. Just because one or the Secured Parties (Mr . l luff) and an equity holder in
GlT (Mr . Kinghorn) might be able to benefit from a judgment \\On in this court
does not mean that Mr. Kinghorn or Mr . Huff may llout the Agreement and its
tenn s. Nothing in the court' s rulings in GIT J and GIT II supports the position
ad\ ·anced in the Nominal Plaintiffs· s briefs .
The Nominal Plaintiffs also attempt to distort the tenn s of the Agreement
itself:
Specifi cally, due to GJT ' s prior recove ries and
disbursements and due to GJT"s adjudicated but yet
uncollected entitlement s pursuant to the IGIT-MK
litigati0n], Kinghorn and l ,OFH (Huff) collecti\'cly ha\'('
27.4% of the allocated voting interests and rights under
the Agreement Respecting Litigation .
Nominal Plaintiff s' Repl y at 3 (footnote and citation omitted). Even though the
most gross misstatement in this pas sage is corrected in a footnote , where the
Nominal Plaintiff s concede that Mr . Huff and Holland & Knight LLP share a 7.4%
participant intere st in settlements over $8.5 million (thus rendering the collective
"27.4% " share figure for Mr . Kinghorn and Mr . Huff patentl y inaccurate ), there is
nothing in the Agreement which supports the Nominal Plaintiff s' assertion that
previous and anticipated litigation recoveries somehow diminish the voting power
of the Real Parties . Nor have the Nominal Plaintiff s cited evidence to convince the
coun that the Agreement ' s terms are no longer in force . Simpl y put , the Nominal
Plaintiffs have no argument against the terms of the Agreement other than vague
ipse dixit: "Nothing renders the Kingh orn and [HuffJ interest s and right s inferior
such that they cannot rati fy [the Nominal Plaintiffs] as Plaintiffs in this case." Id.
The court mu st reject the Nominal Plaintiff s' attempt to distort the
Agreement and the effect of the tran sfer of claim s prompted by GIT' s bankruptc y .
The Real Parties possess the voting power to make operating decisions for the
plaintiff s in this suit, and , per their instructi ons , the Secured Parties shall be
substituted as plaintiff s in this suit proceeding under the nam es of nominal
plaintiff s GIT and MK . Real Parties ' Mot. Ex . 1 ~ 4 . The Secured Parties also
possess the voting power to select counsel and ha\'e chosen Mr . Barbour to repla ce
Mr . Scho oley . Id. ~~ 2, 5. Thus , the attorne y of record for plaintiffs is now Mr.
Barbour.
IO

App-43

Case 1:12 -cv-~ J057 -LJB

C.

Document 57

Filed 04/31..,,..1.4Page 11 of 15

Joinder is Not Appropriate

In LJ final ulternpt to preserYe a decision-making role in this litigation as ,,ell
as a continuing role for Mr . Schoole y. the No minal Plaintiffs seek to be joined in
this action . In one brief, it appear s that GIT seeks to be joined as plaintiff to
continue to represent the intere s ts or Mr. Huff and Mr . Kinghorn . Nominal
Plaintiffs· Mot. at 6 ('"Thus, the ratified Plaintiffs should be pennitted to continue
prosecuting this case . .. to appropriately assert the rights and intere sts of [Mr.
Huffl and rMr.l Kinghorn per Ru le 19, RCFC and/or Rule 20, RCFC .''). In their
reply brief, the Nominal Plaintiffs ma y be sugge sting that Mr . Kinghorn and Mr .
Huff should themselve s be joined as parties , although the arguments in this regard
are not particularly cohe rent. See Nominal Plaintiffs' Reply at 4 (seek ing
manda tory joinder because Mr . Huff and Mr . Kinghorn are '·necessary parties ''): id
at 6 (advocating for penniss ive joinder and describing Mr . Huff and Mr. Kinghorn
as "pennission parties to ratify [Nominal] Plaintiffs "). Irrespective of the manner
of joinder proposed by the Nominal Plaintiffs , joinder of additional parties in this
litigat ion is inappropriate .8
Joinder of GIT , if that is indeed an option proposed by the Nominal
Plainti ffs, is inappropriate for the simple reason that post-bankruptcy GIT has no
financial interest in claims arising from the DOE project. Those claims were
transferred to the Secured Parties in the GIT bankruptcy litigation. See GIT I, I 08
Fed . Cl. at 169-70. Absent a financial intere st in this case , the only rationale that
wou ld require GIT to be joined in this action would be if the absence of GIT
prevented the court from "accord[ing] complete relief among existing parties ."
RCFC l 9(a)( I )(A) . The Nominal P lainti ffs have presented no persuasive argument
that removing GIT from a decision-making role in this litigation would impair this
court's ability to render complete relief in this action . Mandatory joinder of GIT is
therefore not appropriate under this court ' s rules . Pennissive joinder is also not
appropriate because GIT has no right s to assert in this suit. See RCFC 20(a )( 1)(/\)
(stating that pem1issive joinder is limited to parties which "assert any right to
relief ').
As for
8

Mr. Kinghorn , if the Nominal

Plaintiffs indeed seek to join him as a

Th e cou rt also rejects the 1\ominal Plaintiff s' curious sugges tion that the Real Parties·
Motion to Substitute be deemed to be a motion to inter vene a<;co-plaintiffs in thi s suit. Nominal
Plaintiff.<;' Mot. at 6. Such an interpretation contravenes the clear goa ls, and title . of the Real
Partie s · l\fotion to Substitut e.
/

II

App-44

Case 1:12-c\. _,,J057-LJB Document 57 Filed 04fo'- ,14 Page 12 of 15

party to this action. the Real Parties cite appropr iate authoritie s that den'.,
mandatory and/or penni ss i,·c join<ler to entities with mer e!~· con tingent financ ial
interests in the proceed s orsuits in this court . ,\'ee Real Parties· Repl~· at 5-9 (c iting
l .'nill!d J.:eetomrah Band of Chffokel! Indians of Ok la. v. l i'nit ed Stales , -t80 F.3d
13l 8 (Fed. Cir. 2007): Fisherman 's llarwst , Inc . L l 111i1
ed S tales. 74 Fed . Cl. 68 1
(2006) : Franconia .-lssocs. v. United States . 61 Fed . Cl. 335 (200-t)). Mr.
Kinghorn possesses no direct claim against the United State s that can be
adjudicated in this court , and hi s absence from thi s suit will not impair the court's
ability to render complete relief to the existing parties in thi s action. No type or
joinder of Mr. Kinghorn is therefore appropriate pursuant to this court 's rule s. The
court notes , too , that the Agreement entered into by Mr . Kinghorn place s control of
this litigation in the hands of the Secured Parties ; thus , in the court ' s view , joinder
of Mr . Kinghorn could quite po ssihl y , ·iolate the J\grecmenr s tern1s and the
conditions of GIT ' s bankruptcy . See Def.° s Br. of Apr. 3, 2012, Ex. C ~,i 2, 9.
As for Mr . Huff , if the Nominal Plaintiffs indeed seek to join him as a party
to this action , the Real Parties argue that his status as one of the Secured Parties
gives his intere sts adequate protection in this suit. Real Parties· Reply at 10-11 .
The court agrees . The Secured Parties are the real parties in interest in this suit and
their interests are now represented by Mr. Barbour. Mr . Huff is thus represented in
this suit , although , pursuant to the Agreement he signed , his voting interest among
the Secured Partie s is so small that he cannot, by himself, choose counsel or direct
the litigati on . Mandatory joinder is not appropriate , because complete relief may
be afforded Mr . Huff and the other Secured Parties , and his interests in a judgment
award from this court or a sett lement are adequately protected . Additionally , as is
the case for Mr. Kinghorn, the Agreement entered into by Mr . Huff places control
of this litigation in the hands of those entities or individuals who constitute the
Secured Parties and who hold 75% or more of the voting interests at a particular
settlement level. Thus, in the court ' s view, joinder of Mr . Huff as a separate
plaintiff could quite po ssibly violate the Agreement's terms and the conditions of
GIT ' s bankruptc y. See Def.'s Br. of Apr . 3, 2012 , Ex. C ~ii2, 9.
As previously observed , the Nominal Plaintiffs ' argwnents regarding joinder
are largely vague ipse dixit pronouncement s that have no basis in law . To the
extent that the Nominal Plaintiffs cite generally to United Keetowah, the analysis is
perfunctory and unpersua sive . See Nominal Plaintiffs ' Repl y at 5 (drawing
unspecified support from United Keetowah to conclude that Mr . Huffs and Mr .
Kinghom ·s interests are " direct and immediate ," " legally protectable ,'' and
12

App-45

Case 1:12-c\ _J0 57-LJB

Document 57

Filed 04/::,...,.1.4 Page 13 of 15

" sufficiently affecte<l'. to man<late join<ler under RCFC I 9) . Similar!>·, \\hen the
Nominal Plaintiff s cite generall~ to Franconia .--lssociates. the argument is \'ag ue
and unpersuasi, ·e as \\ ell \\ ith respect to penni ssi, ·e joinder Lm<lerRCFC 20:
As ad<lresseJ in l'iw ·1conia .{ssociates v. c·nited
,','tales. 6 I Fe<l. Cl. 115 (2004) , the t\\0 (2) criteria for
joinder of penni ss ive parties is easily satisfied where , as
here, the right s of all parties arise from the same
occurrence and transaction s. In this matter , all parties to
the Agreement Re specting Litigation are considered real
parties in interest. Accordingl y, Kinghorn and [Huftl
have rights to relief equivalent to those of the
" Suhstitut ing Secured Partie s'·. The contention that
neither Kinghorn nor [Huft] have sufficient rights to
allow permis sive joinder is wrong .
The glaring flaw in the "Substituting Secured
Parties[] " argument is that they claim their interests for
substitution into this case based on the same grounds as
they contend fails to give Kinghorn and [Huff] sufficient
interest for permissive joinder . These contentions arc
entirely inconsistent.
If the " Substituting Secured Parties " have
sufficient interest to be considered real parties in interest
for purposes of substitution, then Kinghorn and [Huf11
must likewise have sufficient interest to be pennissi ve
parties . Therefore, the Kinghorn and [Huff] ratifications
of Plaintiffs should be sufficient for this case to continue
forward .
Nomina l Plaintiffs ' Reply at 6- 7.
As explained supra, the rules for joinder relied upon by the Nominal
Plaintiffs do not contemplate the joinder of Mr . Huff and Mr . Kinghorn simply
because they may eventually assert rights to a portion of any judgment or
settlement achieved in this case . These two individuals have no independent rights
arising from the DOE project ; their financial interests are alread y adequately
repre sented in this suit by the Secured Parties and the Secured Parties ' choice of
counsel , Mr. Barbour . The Nominal Plaintiffs have presented no cogent or
13

App-46

Case 1:12-cv- _,J05 7-LJB

Document 57

Filed 04/3v,_-4 Page 14 of 15

per suasi, ·e argwnent thatjoinder in thi s ca se is \\HITi.mle<l un<ler this court' s rules
or applicable precedent.
The cow-t note s that the Nominal Plaintiff s have offere<l no casela\\ - ,,hich
supports joinder of Mr. Huff or Mr. Kinghorn in this ca se. A proportionate right to
a judgment or settlement obtained through this litigation is a contingent interest
which doe s not require joinder of these two individuals as partie s, particularly
where Mr . Huff and Mr. Kinghorn entered into an Agreement as to how their rights
would be protected in this litigation . See Fisherman 's Harvest , 74 Fed . Cl. at 688
(holding in that case that the advocates of joinder failed to demonstrate that
complete relief would not be accorded the existing parties absent joinder , and
failed to show that the interests of the entities proposed for joinder would be
impnired absent joinder ).
Furthern10re , Mr . Huff and Mr . Kinghorn do not possess any right or claim
independent of the claim asserted by the Secured Parties so as to make pern1issive
joinder under RCFC 20 appropriate. In other words , theirs is not an asserted claim
against the United States currently poised to proceed in this court , but a right that
might eventually be asserted against the other participants to the Agreement. Thus ,
there is a valid distinction to be drawn between claims arising from the DOE
project and the legal principles relevant to those claims , on the one hand , and
GIT ' s creditors ' potential claims to a share of any proceeds resulting from this
litigation ? on the other. The Real Parties are correct to assert that the transaction at
issue in this suit , and the questions of law at issue in this suit , are not the same as
the transactional context of legal claims that may eventually be adjudicated in a
suit brought by Mr . Huff and/or Mr . Kinghorn should a settlement or judgment be
obtained by the Secured Parties . See Real Parties Reply at 8-9 ( citing RCFC
20(a)( I ) and Franconia Associates , 61 Fed. Cl. at 336-38). For all of these
reasons, joinder of Mr. Huff or Mr . Kinghorn in this action is not appropriate under
either RCFC 19 or 20 .

CONCLUSION
The motion for substitution of the real parties in intere st as plaintiffs in this
litigation and for the substitution of Mr . Barbour for Mr . Schoole y as counsel for
plaintiffs is granted . Notice of the court ' s decision shall be communicated to the
United States Court of Appeals for the Federal Circuit by the parties as required by
the order issued in that appeal. Accordingly , it is hereb y ORDERED that
14

App-47

Case 1:12-cv-vJ057-LJB

Document 57

Filed 04/3G,_,_4 Page 15 of 15

( I)

The Real Parties· Motion to Substitute the Real Parties in
Intere st/ Motion to Substitute Co unsel, filed Ma~· 24, 2013 , is
GRANTED:

(2)

Plaintiff s· Ground Jmpro, ·ement Techniques , Inc . and MK.Ferguson Company Cross -Motion to Ratit\ Plaintiffs , filed
June 7, 20 I 3, is DENIED ;

(3)

The Clcrk·s Office is directed to CORRECT the docket to
reflect the substitution of the real partie s in intere st as plaintiffs ,
pursuant to RCFC l 7(a)(3), as shown in the caption of this
opnuon ;

(4)

The Clerk 's Office is directed to SUBSTITUTE Mr. Robert G.
Barbour , pursuant to RCFC 83. l (c)(4)(A)(i)(II\ as the attorney
of record for all plaintiffs in this case ; and,

(5)

Proceedings in this case , pursuant to the court ' s order of July
12, 2013 , remain STAYED pending the resolution of the appeal
before the Federal Circuit, and all provi sions of that order
remain in effect.

/s/Lvnn J. Bush
LYNN J. BUSH
Senior Judge

15

App-48

Case 1:lL

,-00057-LJB Document 45 Filed 05"

113 Page 1 of 9

lfn tbeWniteb
~tates ~ourtofjfeberaleriaims
No. 12-57 C
(Filed May 3, 2013)
UNPUBLISHED

*************

** **

GROUND IMPROVEMENT
TECHNIQUES , INC., and MK
FERGUSON COMPANY , for the use and
benefit of GROUND IMPROVEMENT
TECHNIQUES , INC.,

Plaintiffs ,
V.

THE UNITED STATES ,

*
*
*
*

*
*
*
*
*
*

RCFC 59, Motion for
Reconsideration ; RCFC
17(a); Real Party in
Interest for Claims
Transferred to Creditors in
Bankruptcy Case.

*

*
*

Defendant .

*************

*

* * **

*

Steven R. Schooley , Orlando, FL, for plaintiffs. Frederick Huff, Littleton,
CO, of counsel.
Jeffrey A. Regner , United States Department of Justice , with whom were
Stuart F. Delery, Principal Deputy Assistant Attorney General, Jeanne E.
Davidson , Director , Steven J Gillingham, Assistant Director , Washington, DC, for
defendant.

OPINION AND ORDER

Bush, Judge.

On February 8, 2013, plaintiffs filed a motion for reconsideration of one

App-49

Case 1:E

1-00057-LJB

Document 45 Filed 05, ,/13

Page 2 of 9

aspect of this court's opinion of December 5, 2012 . See Order of Feb . 14, 2013.
The particular ruling challenged by plaintiffs is the court's holding that Ground
Improvement Techniques, Inc. (GIT) is not the real' party in interest to pursue the
claim in Count IV of the complaint, the only remaining claim in this suit.
Plaintiffs' motion is governed by Rule 59 of the Rules of the United States Court
of Federal Claims (RCFC). For the reasons stated below, plaintiffs ' motion for
reconsideration is denied.

BACKGROUND

1

Most of the relevant background for this dispute may be found in
Ground Improvement Techniques, Inc. v. United States, 108 Fed. Cl. 162 (2012),
the opinion issued on December 5, 2012 in this case. Only the facts essential to
plaintiffs' motion for reconsideration are provided here. As a threshold
observation, the court notes that plaintiffs have not pointed to any errors of fact in
the court's opinion of December 5, 2012.

I.

Contract Disputes Litigation and Bankruptcy Proceedings

In 1995, GIT became the subcontractor for MK-Ferguson Company (MK)
on a United States Department of Energy project in Slick Rock, Colorado (the
DOE project) for the remediation of uranium mill tailings. 2 During the course of
performance , GJT's subcontract was terminated for default and the termination
thereafter became the subject of litigation between MK and GIT in the United
States District Court for the District of Colorado (the GIT-MK litigation). During
the course of that litigation, which, including various appeals, lasted at least twelve
years, GIT filed for bankruptcy under Chapter 11 of the Bankruptcy Code, in the
United States Bankruptcy Court for the Western District of Pennsylvania (the GIT
bankruptcy litigation).
As a result of GIT's bankruptcy, its claims against MK were transferred to
five of GIT's creditors (the Secured Parties): PNC Bank, Fireman's Fund
Insurance Company, Holland & Knight LLP, The Law Offices of Frederick Huff,
1
/

This background information is drawn largely from the parties ' filings , and does not
constitute fact finding by the court.
2
/

MK has undergone multiple corporate name changes , and will be referred to as MK
even in reference to events which occurred after those name changes.

2

App-SO

Case 1:1£. .1-00057-LJB

Document 45 Filed OS,, /13 Page 3 of 9

and R.N. Robinson & Son, Inc., except for a dividend of $125,000 for GIT 's
unsecured creditors. The Secured Parties elected to continue litigation against MK
in the name of GIT, rather than directing GIT to assign its claims against MK to the
Secured Parties. GIT eventually obtained a large judgment against MK, which was
partially satisfied by a surety in 2009.
In 2001, MK, too , filed for bankruptcy under Chapter 11 of the Bankruptcy
Code, in the United States Bankruptcy Court for the District of Nevada (the MK
bankruptcy litigation). The unsatisfied portion of GIT's judgment against MK, and
post-judgment interest, were claims administered in MK's bankruptcy. The
bankruptcy court required MK to file a certified claim with DOE to attempt to
satisfy GIT's claims against MK related to the DOE project. MK did so, but the
certification was contested as inadequate .
The bankruptcy court eventually ordered GIT itself to file GIT's claims with
DOE ' s contracting officer under MK's name, and to certify its own claims. GIT
also filed a certified claim in its own name with the DOE contracting officer.
Having received no response from the contracting officer on its claims, GIT filed a
"deemed denied" suit in this court for the claims submitted to the contracting
officer in its own name and in MK's name (for the benefit of GIT). Counts I-III of
the complaint, claims brought directly by GIT against the United States, were
dismissed for lack of privity between GIT (the subcontractor on the DOE project)
and the United States. The only remaining claim in this suit (Count IV of the
complaint) is the claim in MK's name for the benefit of GIT, a type of claim that is
sometimes referred to as a pass-through claim.
II.

This Court's Holding Regarding the Real Parties in Interest Issue

Defendant asserted that GIT was not the real party in interest to bring this
suit against the United States for claims related to the DOE Project. The primary
thrust of the government ' s argument was that when GIT went through bankruptcy,
any claims it possessed against MK and the United States were transferred to
GIT's creditors . Plaintiffs conceded that certain of GIT's creditors might receive
some benefit from this suit, but contended that post-bankruptcy GIT will be the
major beneficiary of this action.
Defendant's arguments were persuasive, because GIT's bankruptcy effected
a transfer of GIT's claims against MK to the Secured Parties . The court cited
3

App-5 1

Case 1:12. _,-00057-LJB

Document 45 Filed 05,, ....113Page 4 of 9

numerous court documents which showed that the Secured Parties , not GIT, own
the claims against MK and the United States. See Ground Improvement, 108 Fed.
Cl. at 169-70 (citing GIT' s Second Amended Plan of Reorganization, a related
Agreement Respecting Litigation, and court orders in the GIT-MK litigation and
the MK bankruptcy litigation). Plaintiffs' arguments to the contrary, unsupported
by legal authority, were either refuted by the court documents cited by defendant or
were irrelevant to the real parties in interest issue. See id. at 170-71 (noting that
plaintiffs' arguments found no support in court documents, and that GIT's rights to
any proceeds from its claims against MK and the United States are now held by the
Secured Parties, with any excess to be awarded to GIT's unsecured creditors). The
court therefore concluded that GIT's claims against MK are now held by the
Secured Parties and that the Secured Parties are the real parties in interest for GIT's
claims against MK related to the DOE project, and to any related claims against the
United States. Id. at 171.
The court held, further, that the Secured Parties are the real parties in interest
for the pass-through claim presented in Count IV of the complaint. GIT is merely
the nominal plaintiff for their interests in the remaining claim in this suit. Id. The
court therefore ordered GIT to file a notice describing the method by which the real
parties in interest would participate in this suit, pursuant to RCFC l 7(a)(3). Along
with that notice filed by GIT on February 8, 2013, GIT filed a motion for
reconsideration of the court's ruling on the real parties in interest issue. See Order
of Feb. 14, 2013. Defendant's response was filed on March 5, 2013; plaintiffs'
motion is now ripe for decision.
DISCUSSION

I.

Standards of Review
A.

RCFC 59

Pursuant to RCFC 59, a plaintiff may be granted reconsideration of the
court's disposition of an issue for any of the reasons established by the rules oflaw
or equity. RCFC 59(a)(l)(A)-(B). "The decision whether to grant reconsideration
lies largely within the discretion of the [trial] court." Yuba Natural Res., Inc. v.
United States, 904 F.2d 1577, 1583 (Fed. Cir. 1990) (citations omitted). "For a
movant to prevail, he must point to a manifest error of law or mistake of fact."
Pikeville Coal Co. v. United States, 37 Fed. Cl. 304, 313 (1997) (citation omitted).
4

App-52

Case 1:12-c. J0057-UB

Document 45 Filed 05/0 ...._3 Page 5 of 9

The movant must show: "(I) that an intervening change in the controlling law has
occurred; (2) that previously unavailable evidence is now available; or (3) that the
motion is necessary to prevent manifest injustice. " First Fed. Lincoln Bank v.
United States, 60 Fed. Cl. 50 I, 502 (2004) (citations omitted) .

It is important to note that a motion for reconsideration functions not as
another round of briefing, but as a request for extraordinary relief . See Caldwell v.
United States, 391 F.3d 1226, 1235 (Fed. Cir. 2004) ("Motions for reconsideration
must be supported 'by a showing of extraordinary circumstances which justify
relief."' (quoting Fru-Con Constr. Corp. v. United States, 44 Fed. Cl. 298, 300
(1999), ajf'd, 250 FJd 762 (Fed. Cir. 2000) (table))). "The purpose served is not
to afford a party dissatisfied with the result an opportunity to reargue its case."
A.A.B. Joint Venture v. United States, 77 Fed. Cl. 702, 704 (2007) (citations
omitted). Motions for reconsideration are not granted merely "because an unhappy
party failed to urge a theory which it could have raised in original proceedings."
Bernard v. United States, 12 Cl. Ct. 597, 598 (1987) (citations omitted). Nor are
motions for reconsideration properly employed to reassert arguments that the Court
has already considered. Pikeville Coal, 37 Fed. Cl. at 313 (citation omitted).
Absent extraordinary circumstances, a motion for reconsideration will not be
granted. See Caldwell, 391 F.3d at 1235.
B.

Real Party in Interest

Aside from certain exceptions not relevant here, " [a]n action must be
prosecuted in the name of the real party in interest." RCFC 17(a)(l) . This court
has stated that "[w]ithin the context of RCFC l 7(a), a real party in interest has been
defined as the party that 'possesses the right to be enforced."' Grass Valley
Terrace v. United States, 69 Fed. Cl. 543, 546 (2006) (citation omitted). When a
plaintiff has been determined to not be the real party in interest for a claim, this
court may allow the plaintiff a reasonable amount of time to cure this defect, either
through substitution of the real party in interest, joinder or ratification . RCFC
l 7(a)(3); see Aldridge v. United States, 59 Fed. Cl. 387, 390 (2004) (requiring the
submission of evidence, within a certain period of time, to determine if a
bankruptcy trustee had abandoned a claim to the debtor-plaintiff or wished to assert
the claim in this court for the benefit of the bankruptcy estate); see also First
Hartford Corp. Pension Plan & Trust v. United States, 194 F.3d 1279, 1289 (Fed.
Cir. 1999) (stating that RCFC l 7(a) "sets forth the broad and general principle that
actions should be brought in the name of the real party in interest and that courts
5

App-53

Case l:lL

,-00057-LJB Document 45 Filed 05,_ j1 3 Page 6 of 9

should be lenient in permitting ratification, joinder , or substitu tion of that party").
Failure to prosecute an action in the name of the real party in interest , unless cured
by the methods referenced in RCFC 17(a)(3), will result in the dismissal of the
claim .3 See, e.g., Norega v. United State s, 113 F. Supp . 463, 464 (Ct. Cl. 1953);
Aldridge , 59 Fed. Cl. at 390 .
II.

Analysis

Plaintiffs present two arguments in support of their contention that GIT is a
real party in interest in this suit. The first argument is that GIT ' s status "as a
debtor-in-possession " establishes that GIT is also a real party in interest in this suit.
Pis.' Mot. at 4. The second argument is that the Secured Parties , in prior
proceedings in other courts, have ratified GIT's "standing to proceed as a real party
in interest." Id. at 8. The court will address these arguments in tum .

A.

The Debtor-in-Possession Argument

The court notes first that plaintiffs did not raise a "debtor-in-possession"
argument when defendant first challenged GIT ' s real party in interest status. There
is no reason plaintiffs could not have timely presented this argument for the court' s
consideration . A motion for reconsideration does not provide plaintiffs an
additional bite at this particular apple. E.g., Bernard, 12 Cl. Ct. at 598. The court
must therefore reject this argument as grounds for overturning the court ' s ruling on
the real party in interest issue .
The court notes further that the cases relied upon by plaintiffs for their
"debtor-in-possession " argument were issued in 1954, 1991, and 2008. Pls .' Mot.
at 4-5 . Thus, it is clear that plaintiffs are not arguing that there has been an
intervening change in law between 2012 , when they initially briefed the real party
in interest issue, and the filing of their motion for reconsideration in February of
2013 . Because plaintiffs have not shown that an intervening change in the
controlling law has occurred , their motion for reconsideration cannot be granted on
that basis.4 E.g ., First Federal Lincoln Bank , 60 Fed. Cl. at 502.
3
/

The co urt ma y rely on rele vant court doc ument s submitt ed by the parti es to reso lve a
real party in intere st challen ge. Ground Impro vement, l 08 Fed . C l. at I 69 n.5.
4

/

Nor have plaint iffs argued that new ly ava ilable evi dence or man ifest inju stice j ustify
continue ...

6

App-54

Case 1:L

.,J-00057-LJB

Document 45 Filed 0b,~.3/13 Page 7 of 9

Finally, even if plaintiffs ' legal argument regarding GIT's status as "debtorin-possession" were properly before the court, defendant ably argues that GIT, a
reorganized debtor, is no longer a "debtor-in-possession" and no longer has the
powers or rights that might, in other circumstances, have authorized GIT to litigate
the Secured Parties' claim as a real party in interest. See Def. 's Mot. at 5 ( citing In
re United Operating, LLC, 540 F.3d 351,355 (5th Cir. 2008)). None of the cases
cited by plaintiffs controvert defendant's analysis. As to plaintiffs' contention that
GIT continues to act as a "debtor-in-possession," as evidenced by commentary by
the judge presiding over the MK bankruptcy litigation, see Pis.' Mot. at 6-7,
nothing in the passages cited by plaintiffs reflects a judicial determination that
GIT, not the Secured Parties, is the real party in interest for the claims brought
before this court. For all of these reasons, plaintiffs' "debtor-in-possession"
argument does not warrant reconsideration of the court's real parties in interest
ruling.
B.

The Prior Ratifications Argument

Plaintiffs also argue that "GIT's standing to proceed as the real party in
interest . .. has been previously ratified by the 'Secured Parties' recognized by this
Court." Pls.' Mot. at 7. Plaintiffs cite no caselaw in support of this argument.
Instead, plaintiffs' quote from two documents attached to their motion, dated 2002
and 2009 . See id. Exs. D-E. Plaintiffs' argument is not persuasive , for a few
reasons.
First, this argument was not raised by plaintiffs when they opposed
defendant's challenge to GIT's real party in interest status. There is no reason
plaintiffs could not have timely presented this argument for the court's
consideration. This argument therefore does not constitute grounds for
reconsideration under the standard cited supra.
Second, the documents in question were signed by plaintiffs' counsel Mr.
4
/

continue
reconsideration of the court ' s ruling on the real party in interest issue. As defendant notes, no
newly available evidence has been cited by plaintiffs , and no manifest injustice could be alleged
in a case where the rea l parties in interest (the Secured Parties) have expressed their intent to
prosecute the one remaining claim in this suit. Def. ' s Resp. at 3-4 . Thus , plaintiffs have failed
to raise any of the justifications for reconsideration that have been established by this court 's
precedent to legitimize the presentation of their debtor-in-possession argument.
•••

7

App -55

Case 1:L

✓-00057-LJB

Document 45 Filed 0!:>,_J/13 Page 8 of 9

Schooley , and thus cannot be construed to be newly available evidence. The court
observes, too, that plaintiffs have not alleged any intervening change in controlling
law, or manifest injustice, that would justify the court's reconsideration of its
ruling on the real parties in interest issue. The court concludes that plaintiffs have
presented no justification that warrants reconsideration in this instance .
Even if plaintiffs' newly contrived legal argument regarding alleged prior
ratifications of GIT' s real party in interest status were properly before the court,
defendant ably argues that there has been no effective ratification by the real
parties in interest in this case. See Def.'s Resp . at 6. In defendant's view, prior
ratifications of GIT for the purposes of representing the interests of the Secured
Parties in different cases do not operate as a ratification in this case before this
court . In effect, any such prior ratifications were of limited duration and have no
applicability to this case. The court must agree. For their prior ratifications
argument, plaintiffs rely on evidence that is irrelevant to the real parties of interest
issue in this case. For all of these reasons, plaintiffs' "prior ratifications"
argument, Pis.' Mot. at 7, does not warrant reconsideration of the court's real
parties in interest ruling.
CONCLUSION
Plaintiffs have failed to show that reconsideration of the court' s ruling on the
real parties in interest issue is merited. In order to effectively address the
remaining claim in this case, this ruling, and the other substantive rulings of the
court's opinion of December 5, 2012, shall be entered as final judgments pursuant
to RCFC 54(b). In doing so, the court is mindful of the need to avoid piecemeal
litigation, but recognizes that in this case it would be profoundly inefficient to
leave the door open to potential, much-delayed challenges to this court's rulings.
Such challenges, particularly when brought by an entity which is not the real party
in interest in this suit, would only hinder the timely resolution of the claim
presented in Count IV of the complaint.
The next step in this litigation is the resolution of the apparent dispute
regarding the nature of the Secured Parties' participation in this suit and their
choice of counsel. See Order of February 14, 2013. The briefing schedule set forth
below addresses the narrow issue of whether the Secured Parties, according to
relevant and reliable evidence, shall now substitute themselves for GIT in the
prosecution of the claim set forth in Count IV of the complaint (and substitute
8

App-56

Case 1:1:C.J ✓-00057- LJB Document 45 Filed 05,~J/13

Page 9 of 9

counsel), or whether they shall now ratify GIT to prosecute that claim. 5 This
briefing schedule is not an opportunity for the re-introduction of arguments
previously rejected by the court.
Accordingly, it is hereby ORDERED that
(1)

Plaintiffs' Motion for Reconsideration, filed February 8, 2013,
is DENIED;

(2)

Pursuant to RCFC 54(b ), insofar as there is no just reason for
delay, and in accordance with the court's opinion of December
5, 2012 , the Clerk's Office is directed to ENTERjudgment for
defendant as to the dismissal of Counts I-III of the complaint
without prejudice, and to also enter judgment for defendant as
to the identification of the Secured Parties as the real parties in
interest for the claims presented in this suit;

(3)

The Secured Parties' Motion to Substitute the Real Parties in
Interest in This Suit/Motion to Substitute Counsel shall be
FILED on or before May 24, 2013;

(4)

Plaintiffs' Response to the Secured Parties' Motion , and any
Cross-Motion to Ratify Ground Improvement Techniques, Inc .
as Plaintiff and Mr. Schooley as Counsel, shall be FILED on or
before June 7, 2013;

(5)

The Secured Parties' Reply shall be FILED on or before June
14,2013;and

(6)

Plaintiffs' Reply, if any, shall be FILED on or before June 21,
2013.
ls/Lynn J. Bush
LYNN J. BUSH
Judge

5
/

The court notes that it is not ' prior ratification s in prior court proceedings ' at issue
here, but rather current decisions of the Secured Parties.
9

App-57

